<html>
<title> - ALL ARMS WARFARE IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 115-447]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-447
 
                  ALL ARMS WARFARE IN THE 21ST CENTURY

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AIRLAND

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         


         


       Available via the World Wide Web: http://www.govinfo.gov/
       
       
       
       
       
                         _______________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-430 PDF              WASHINGTON : 2019            
       
       
       


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman          JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                 BILL NELSON, Florida
ROGER F. WICKER, Mississippi              CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                     JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                      KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota                 RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                          JOE DONNELLY, Indiana
THOM TILLIS, North Carolina               MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                      TIM KAINE, Virginia
DAVID PERDUE, Georgia                     ANGUS S. KING, JR., Maine
TED CRUZ, Texas                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina            ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                       GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                               
                                     
                Christian D. Brose, Staff Director
               Elizabeth L. King, Minority Staff Director             
             
                          _______
                          

                        Subcommittee on Airland

  TOM COTTON, Arkansas, Chairman          ANGUS S. KING, JR., Maine
JAMES M. INHOFE, Oklahoma                 CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi              RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina               JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska                      ELIZABETH WARREN, Massachusetts
TED CRUZ, Texas                           GARY C. PETERS, Michigan
BEN SASSE, Nebraska                  
                                     
                               (ii)

  


                         C O N T E N T S

                      ______________________

                             March 15, 2017

                                                                   Page

All Arms Warfare in the 21st Century.............................     1

Deptula, Lieutenant General David A., USAF (Retired), Dean of the     4
  Mitchell Institute of Aerospace Power Studies.
Macgregor, Colonel Douglas A., USA (Retired), Executive Vice         16
  President of the Burke-Macgregor Group.
Scharre, Paul, Senior Fellow and Director, Future of Warfare         27
  Initiative, Center for a New American Security.

                                 (iii)


                  ALL ARMS WARFARE IN THE 21ST CENTURY

                              ----------                              


                       WEDNESDAY, MARCH 15, 2017

                               U.S. Senate,
                           Subcommittee on Airland,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:44 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Tom 
Cotton, chairman of the subcommittee, presiding.
    Committee members present: Senators Cotton, Cruz, King, 
Donnelly, Warren, and Peters.

            OPENING STATEMENT OF SENATOR TOM COTTON

    Senator Cotton. The hearing will come to order.
    Good afternoon, everyone. Welcome to the first hearing of 
the Airland Subcommittee of 2017.
    Today we are going to discuss all arms warfare in the 21st 
century, and we are going to hear from a distinguished group of 
soldier statesmen. We have retired Air Force Lieutenant General 
David Deptula, who is now the Dean of the Mitchell Institute of 
Aerospace Studies. Next, we have retired Army Colonel Douglas 
Macgregor, who is now Executive Vice President of the Burke-
Macgregor Group. Finally, we have Mr. Paul Scharre, a senior 
fellow and Director of the Future of Warfare Initiative at the 
Center for a New American Security. I want to thank you 
gentlemen for your service and thank you all for agreeing to 
join us here today.
    As I mentioned, the purpose of the hearing is to understand 
what all arms warfare might look like in the 21st century. We 
are trying to figure out what the battlefield of tomorrow would 
demand, what will our soldiers and our airmen need to win, what 
will be the margin of victory. These are basic questions, but 
as we have learned, that does not mean they are any easier to 
answer.
    The shear variety of threats is so vast that it seems the 
only thing that unites them is what it will take to defeat 
them: a highly agile and flexible United States Military.
    I think back to Jim Woolsey, the former CIA [Central 
Intelligence Agency] Director, and something he said years ago. 
It was 1993, just a few years after the Berlin Wall had fallen, 
and he was testifying before Congress as part of his 
confirmation hearings. He said, in many ways, today's threats 
are harder to observe and understand than the one that was once 
presented by the USSR [Union of Soviet Socialist Republics]. 
Yes, we have slain a large dragon, but we live in a jungle 
filled with a bewildering variety of poisonous snakes. I 
thought that was very well put at the time and today as well.
    I might add we have been fighting one of those snakes for 
the past 16 years, radical Islamist extremism. It poses a 
direct threat to American lives, and as far as we can tell, 
this war will continue well into the foreseeable future.
    We also know our Army and our Air Force will be crucial to 
the fight. Yet, we have been cutting our defense budget for 
years, and now our ground and air forces are the smallest they 
have been since the middle of the last century. This is 
especially concerning because lurking in that jungle of threats 
are all the same rivals we have been competing with for 
decades, a resurgent Russia, a newly assertive China, not to 
mention its temperamental and nuclear-armed ally, North Korea, 
and an aggressive Iran which is spreading its malign influence 
across the Middle East. While we have been busy fighting 
insurgents and terrorists, I am concerned that we have not been 
doing enough to maintain our overwhelming superiority on the 
battlefield and potential conflicts with countries like these. 
If we are going to have any hope of victory against major 
powers, all of our Military Forces will have to work together 
seamlessly.
    That is why in the late 1970s the Army and the Air Force 
began developing the airland battle concept. They wanted to 
figure out how we could defeat a numerically superior adversary 
on the battlefield. Now, one can debate whether this particular 
conceptual framework was entirely effective, but there is no 
debating the need for well-coordinated and integrated forces.
    As our rivals get their hands on the latest military 
technology, it is clear that when it comes to advance weaponry, 
we are not the only game in town anymore. We have to modernize 
the airland joint force for the new reality we face. We cannot 
take it for granted that the joint force will be able to 
operate anywhere and dominate any environment with minimal 
amounts of effort. We have to rethink how we project power, 
including even such seemingly mundane but indispensable things 
as logistics. This will not happen overnight, but if we invest 
in new technologies now, our military can make gradual but real 
gains over the next 5 years. It can also begin to develop a so-
called high-low mix of capabilities that can address these 
emerging threats.
    President Trump has said his new administration will embark 
on a great rebuilding of the armed services of the United 
States. I think modernizing our airland joint forces should be 
near the top of the to-do list.
    I look forward to the witnesses' testimony.
    I note that we have lost my wingman from the last Congress, 
Joe Manchin, not just to this subcommittee, but the full 
committee. However, we have gained a new wingman, who has 
equally impeccable taste in facial hair----
    [Laughter.]
    Senator Cotton.--Senator Angus King from Maine. Senator 
King?

            STATEMENT OF SENATOR ANGUS S. KING, JR.

    Senator King. Thank you, Mr. Chairman. Thank you for 
holding the hearing. Since this is my first hearing as ranking 
member of the Airland Subcommittee, I want to say that I am 
honored and excited to be serving in this role. I appreciate 
the leadership Senator Cotton has provided based upon his 
experience and the work that he has already done, and I look 
forward to working with him on this committee. We have already 
had several discussions about how we wish to proceed.
    I also want to welcome our witnesses today. I thank them 
for their testimony and look forward to hearing and exchanging 
views with you as this hearing goes forward.
    As the subcommittee examines the future of all arms 
warfare, we must remember that the threats facing the U.S., as 
the chairman alluded, are complex and multifaceted. One of the 
major challenges our military will face in the coming decades 
is ensuring they are ready and capable of fighting across an 
entire spectrum of operations. Indeed, that spectrum seems to 
grow every day.
    For over a decade and a half since the September 11th 
attacks, the U.S. Military has been heavily engaged in 
counterterrorism, counterinsurgency, and stability operations. 
Only recently have we begun to refocus on the potential for 
high-end conflict with a near-peer competitor or a conflict in 
a hybrid warfare situation. As we have seen with Russian action 
against Ukraine and the Islamic State in Iraq and Syria, hybrid 
warfare has become more commonplace. It has huge implications 
for the U.S. Military.
    For example, in a future conflict, the United States may 
not engage directly with a near-peer competitor such as China 
or Russia, but could face proxy forces supplied with their 
advanced weaponry and supported by their sophisticated cyber 
and information warfare capabilities. The full spectrum of 
conflicts our armed forces must be prepared to face in the 
coming decades requires new warfighting concepts and 
potentially reorganizing the military to make it more adaptable 
and lethal in a future fight.
    As we consider these issues, it seems to me we need to keep 
four points in mind.
    First, the Trump administration is in the nascent stages of 
developing a national security strategy that will detail the 
administration's vision and priorities for U.S. global 
engagement, including how our military will support those 
efforts. As the Senate Armed Services Committee considers 
critical policy issues this year, such as increased end 
strength, additional force structure, it is critical that we 
ensure policy changes support our defense posture. If not, we 
run the risk of creating a hollow force.
    Second, our committee has the solemn responsibility to 
ensure that the men and women who serve in uniform have the 
equipment and training necessary to safely complete their 
mission. The Service Chiefs have prioritized restoring full 
spectrum readiness, which takes time and requires sufficient 
funding. Furthermore, improving readiness levels also requires 
that our forces have access to modern and upgraded equipment.
    Third, we must be sure that we are preparing for the next 
war. Cyber, area denial, hybrid conflict tactics, and political 
sabotage are all part of the 21st century arsenal. Stubborn 
adherence to outmoded or irrelevant strategies, weapons, or 
structures could be dangerous or worse.
    Fourth, we must be mindful of the budget as resources are 
never unlimited. Significantly increasing defense spending at 
the expense of other core elements of national security does 
not guarantee a more effective fighting force. The 
administration will soon release top line numbers for their 
fiscal 2018 budget request and, according to news reports, will 
propose dramatic cuts to the Department of State, USAID [United 
States Agency for International Development], and other 
agencies that in my view would seriously compromise our 
national security.
    Therefore, today's hearing is an important precursor for 
the subcommittee's work this year since our witnesses will 
raise important questions for our Nation's military as we face 
the challenge in the 21st century.
    I welcome the thoughts of our witnesses today on the 
threats facing our country, whether they believe our armed 
forces are effectively organized and postured to counter those 
threats, and their recommendations for making the military more 
capable and lethal in the future.
    Mr. Chairman, thank you again for holding the hearing. I 
look forward to this afternoon's testimony.
    Senator Cotton. Thank you.
    General Deptula?

    STATEMENT OF LIEUTENANT GENERAL DAVID A. DEPTULA, USAF 
 (RETIRED), DEAN OF THE MITCHELL INSTITUTE OF AEROSPACE POWER 
                            STUDIES

    Mr. Deptula. Chairman Cotton, Senator King, members of the 
Subcommittee on Airland, I am honored and humbled that you 
invited me here today, and I will keep my comments brief. But 
with your permission, I offer an extended written version for 
the record.
    In your invitation to speak today, you asked four questions 
that get to the heart of the challenges our military will face 
in the future. I answer those in my written testimony, but 
before discussing them with you here today, I would like to 
provide just a bit of context about U.S. warfare past, present, 
and future.
    In the past, our military services fought as independent 
entities. Today that is no longer the case. Since the 
Goldwater-Nichols Act of 1986, the individual services do not 
fight. The unified combatant commands do the fighting. The 
services organize, train, and equip what are called service 
component forces. These are then assigned to the unified 
combatant commands to actually conduct operations under a joint 
task force commander. Said another way, jointness is using the 
right force at the right place at the right time.
    Furthermore, jointness argues against a predetermined or 
formulaic mix or application of service components because 
every contingency is different. However, the U.S. Military 
still has challenges shedding anachronistic warfighting 
concepts and embracing new ones.
    In the future, I would suggest we need to move beyond 
service interoperability, one of the goals of Goldwater-
Nichols, to service interdependency, which means the service 
components rely on capabilities brought to the fight by other 
service components.
    Now, to best meet the challenges of future peer and near-
peer adversaries, we must continue to exploit modern 
intelligence, surveillance, and reconnaissance, routine 
precision strike, improvements in survivability, and maneuver 
by focusing on two key essential actions.
    First, unshackle the service-based organizational paradigms 
of the past and embrace more functional joint organizational 
constructs that can be achieved by greater integration of these 
elements. You will hear more on that subject from my colleague, 
Colonel Macgregor.
    Second, rapidly capitalize on the capabilities of the 
information age to actualize the ubiquitous and seamless 
sharing of information across systems in every domain as a 
vision of the Department of Defense. We are just not there yet, 
and we got a long way to go.
    So with that prelude to our subject today, I encourage each 
of you to embolden our military to seek out, experiment, and 
test new concepts of organization and operation.
    With that, I look forward to your questions.
    [The prepared statement of Mr. Deptula follows:]

     Prepared Statement by David A. Deptula, Lt Gen, USAF (Retired)
                              introduction
    Chairman Cotton, Senator King, and members of the Subcommittee, 
thank you for inviting me to present my thoughts on the critical issue 
of the future of all arms warfare in the 21st century. Our air and land 
forces have an extensive history of operating in conjunction with one 
another to accomplish military objectives. WWII and the Cold War posed 
some very significant challenges for the members of the greatest 
generation. As a result of their efforts, the United States prevailed 
against incredible challenges. It is now up to us to confront our own 
unique set of circumstances.
    Our military situation today is stark. The United States faces a 
burgeoning number, and a greater spectrum of threats around the globe. 
At the same time we have declining resources allocated to meeting these 
threats. To successfully confront this dynamic array of dangers, we 
must optimize our military organizations and concepts of operation. We 
must evolve service relationships from ones of interoperability--a goal 
of the Goldwater-Nichols Act, to ones of full integration and 
interdependency. This is the next step in the evolution of our 
military.
    A dollar spent on duplicative capability comes at the expense of 
essential capacity or capability elsewhere. Confused organizational 
structures lead to sub-optimal employment of forces already stretched 
too thin. Outdated service roles, missions, and concepts of operation 
yield costly, inefficient acquisition programs. Clearly, things have to 
change--security circumstances and fiscal pressures will no longer 
tolerate such conditions. We are not going to be able to blast or buy 
our way out of these challenges--we are going to have to think our way 
out of them.
    I believe that if the United States is to succeed in protecting its 
core interests around the globe and deter aggression, we must have the 
strongest Army, Navy, Marine Corps, and Air Force in the world. 
However, fiscal realities dictate that the military must make difficult 
choices in balancing near-term operational readiness with longer-term 
needs. This demands much more clarity regarding goals and desired 
outcomes, with special emphasis on how we can best project effective, 
prudent power to negate threats that would oppose us in the 21st 
century.
    Our Department of Defense and military services are conservative 
institutions. While highly capable they are slow to change, but to 
operate effectively in the information age, we must develop and 
capitalize on the new concepts of operation and organizations that new 
technologies enable. Dr. Thomas Kuhn, renowned American physicist, 
historian and philosopher, noted institutions only accept new paradigms 
when: 1) there is a paradigm crisis; 2) the old people of a given 
paradigm die off; or 3) change is forced from the outside. \1\ We want 
to change before a crisis occurs, and cannot afford to wait for the 
``old-guard'' to depart.
---------------------------------------------------------------------------
    \1\ Thomas S. Kuhn, The Structure of Scientific Revolutions, 
University of Chicago Press, 1962.
---------------------------------------------------------------------------
    In 1986 Congress was the outside institution that forced much 
needed change in the Department of Defense with the Goldwater-Nichols 
Act. It may be time to consider such action again. I commend Chairman 
Cotton, Senator King, and the rest of the Airland Subcommittee for 
beginning this conversation and initiating this series of hearings 
regarding the future of all arms warfare in the 21st century. It is a 
much-needed start.
    I believe the biggest challenge our defense establishment faces is 
one of institutional inertia. We are well into the information age, yet 
our systems, organizations, and concepts of operations remain rooted in 
the industrial age of warfare. Our diplomatic, economic, and 
informational elements of our national security enterprise are also 
largely unchanged since the mid 20th century, and require more 
integration than ever before. We can no longer afford this 
misalignment--not only is it costly, but it also poses undue risk.
    Change with respect to the military involves four principal 
factors--advanced technologies, new concepts of operation, 
organizational change, and the human dimension. Advanced technologies 
and the new capabilities they yield, enable new concepts of operation 
that produce order-of-magnitude increases in our ability to achieve 
desired military effects. Organizational change codifies changes and 
enhances our ability to execute our national security strategy. The 
final and essential element to progress is the human dimension. People 
are fundamental to everything we do, especially when it comes to 
leadership.
The 21st Century Security Environment
    First, our defense strategy must contend with non-state and 
transnational actors; a rising economic and military powerhouse in 
China; a resurgent Russia; declining states--some with nuclear weapons; 
the increasing likelihood of nuclear weapons proliferation; evil actors 
of the most despicable nature; and a dynamic web of terrorism.
    Second, the pace and tenor of our lives has been irrevocably 
altered by the acceleration of change. Global trade, travel, and 
telecommunications have produced major shifts in the way we live. Such 
developments are not isolated. Speed and complexity have merged, and 
now permeate the conduct of warfare. Consequently, one implication for 
future air and land warfare operations is that they must be able to 
respond rapidly and decisively anywhere on the globe at any time. As 
recent events have demonstrated, key security events now unfold in a 
matter of hours and days, not months or years. The window to influence 
such circumstances is increasingly fleeting.
    Third, we have to contend with increasing personnel and procurement 
costs at a time when defense budgets are decreasing. Therefore, the 
provision of flexibility of response across a wide spectrum of 
circumstances should be foremost among the decision criteria we apply 
to our future military.
    Fourth, we should acknowledge that deploying large numbers of 
American military forces onto foreign soil to nation-build vice 
accomplishing a defined mission and then leaving is counter-productive 
to securing our goals. Strategies centered upon occupation expose 
American vulnerabilities, often result in anti-American backlash and 
domestic disapproval, and create destabilizing effects within the very 
state or region they are intended to secure.
    Fifth, we must actively pursue and invest in options we can use to 
counter the increasingly advanced anti-access strategies and 
technologies our adversaries are developing.
    Precision weapons and stealth projected incredible lethality at the 
end of the Cold War. Those capabilities proliferated, and our 
adversaries are now equipping themselves with these systems, and 
seeking greater advancements. One quarter of a century later, it is 
foolhardy to assume U.S. forces will be afforded freedom of action in 
future engagements. Our strategies, planning assumptions, acquisition 
programs, and training need to account for more capable enemies.
    Sixth, we need to challenge our adversaries' domination of public 
perception. We have to learn how to use the application of accurate, 
compelling information as a core element of our security apparatus. We 
are woefully inept at strategic communications and too often put 
ourselves in a reactionary versus proactive position in struggling to 
gain domestic and international public support.
    Finally, information's value also extends past the media. Just as 
wireless connectivity, personal computing devices, and cloud-based 
applications are revolutionizing life in the civilian sector; these 
trends are also altering how our military forces project power. Faster 
and more capable networks and computing capabilities are turning 
information into the dominant factor in modern warfare. We need to 
understand that aircraft like the F-22 and F-35 are information systems 
far above and beyond being fighters that shoot missiles and drop 
bombs--they are sensor-shooters. F-22 operations over Syria validate 
this statement. Given this reality, we must now acknowledge that 
information and its management are just as important today as the 
traditional tools of hard military power--airplanes, satellites, 
infantry, warships. Information is the force evolving all weapon 
systems from isolated instruments of power into a highly integrated 
enterprise where the exchange of information and data will determine 
success or failure in the 21st century.
    These facts have major implications throughout the military 
enterprise, particularly air and land operations--shaping key areas 
like doctrine, organization, training, materiel acquisition and 
sustainment, along with command and control. Top leaders in the policy 
community must adjust to the new realities of information age combat 
operations. Cold War and counterinsurgency paradigms will fall short 
when building, sustaining and employing military power in the modern 
era.
    These trends provide a starting point for anticipating the future 
with which we will have to contend. Bluntly stated, all the services, 
Department of Defense (DOD) agencies, and the other elements of our 
national security architecture have been slow to recognize the emerging 
new security environment. Our focus has remained on traditional weapons 
platforms. We still have institutions and processes that were designed 
in the middle of the last century to accommodate what we now view--in 
retrospect--as a rather simple world of kinetics and traditional 
domains that characterized the Cold War. While nuclear threats have not 
gone away, we need to supplement our traditional focus on combined arms 
warfare with a broader ``lens'' that exploits non-kinetic tools and the 
cyber domain. Excessive emphasis on traditional weapon platforms 
associated with combined arms warfare runs the danger of under-
investing in emerging non-kinetic instruments. We cannot relive the era 
of battleship admirals and cavalry generals that dismissed aviation as 
a passing fad.
    Summarizing, the proliferation of technology, information flow, and 
the associated empowerment of nation-states, organizations, as well as 
individuals, presents one of the most daunting challenges our military 
has ever faced.
The Cornerstones of the U.S. Military: Services and Combatant Commands
    Interservice rivalry is a vivid part of American military history 
stretching forward from the earliest days of our Republic. The most 
intense period of competition occurred at the close of World War II. 
Drawing on the lessons of that war and seeking to address years of 
agonizing political turmoil fueled by service rivalries, President 
Truman prodded Congress to pass the National Security Act of 1947 and 
its first amendment in 1949. This legislation established the 
fundamental postwar defense organization for the United States. They 
created, among other entities, a new Department of Defense (DOD), 
intended to unify the earlier separate Departments of War and Navy, and 
an independent air force as a third military department within DOD.
    In 1958, additional legislation created the unified combatant 
commands that were designated as the headquarters for the conduct of 
actual warfare. However, this objective remained theoretical for many 
years, with the services remaining dominant in all aspects of 
organization, training, equipping, and planning. Land, sea, and air 
forces tended to operate autonomously. A service would develop weapons 
and equipment without regard to their compatibility with that of the 
other services. Army and Navy communications systems could not talk to 
one another; equipment was acquired by the Army and Navy that could not 
be loaded into Air Force cargo planes; and each service had its own 
doctrine for employing aircraft. This did not change until the 
Goldwater-Nichols Act of 1986. Its passage was prompted when years of 
interservice dysfunctionality manifested tragic results during the 1980 
Iranian hostage rescue mission and the less than optimal invasion of 
Grenada three years later.
    The Goldwater-Nichols Act was not intended to erase the differences 
in service philosophies and cultures. However, it was hoped that the 
unique characteristics and strengths of each service could be molded to 
complement one another so the whole would be greater than the sum of 
its parts. Jointness became the mantra of the Armed Forces after 
passage of the Goldwater-Nichols in 1986. So just what did the 
Goldwater-Nichols act do? And what is the proper meaning of jointness?
    Here are the basics of the Goldwater-Nichols Act. First, no longer 
do the individual services fight our nation's wars as separate 
entities--the unified combatant commands do the fighting. The services 
organize, train, and equip what are called service component forces. 
These are then assigned to the unified combatant commands to actually 
conduct operations under a joint task force commander. The way America 
fights essentially boils down to this: individual services organize, 
train, and equip to master their principal domains of operation. The 
combatant commands assemble service and functional components to fight 
under the unifying vision of a joint force commander. It does not mean 
four separate services deploy to a fight and simply align under a 
single commander. It does not mean, ``going along to get along.'' Nor 
does jointness mean everybody necessarily gets an equal share of the 
action. Jointness does not mean homogeneity. Jointness means using the 
right force, at the right place, at the right time--not an equal 
apportionment of all services.
    Joint operations are often misunderstood. The strength in joint 
operations resides in the separateness of the services. Joint force 
operations create synergies because they capitalize on each services' 
core functions--skill sets that require much time, effort, and focus to 
cultivate. It takes 20-25 years to develop a competent division 
commander, a surface action group commander, a Marine Expeditionary 
Force commander, or an air and space expeditionary force commander.
    The beauty of the joint approach to warfare is that because every 
contingency will be different, a joint approach allows a joint task 
force commander to tailor-make a force optimal and unique to the 
particular contingency at hand. The service component force make-up for 
Operation Desert Storm (or the first Gulf War) was very much different 
than that required for Operation Allied Force (the air war over Kosovo 
and Serbia); which was very much different than that required for 
Operation Unified Assistance (the South Asia Tsunami relief); which is 
very much different than that required for Operation Inherent Resolve 
(the current counter Islamic State operation); and so it will be in the 
future.
    Since the passage of the Goldwater-Nichols Act, a joint approach 
was first intended to move contingency organizations and operations 
from independent, de-conflicted, service approaches, to sustained 
interoperability. Today, we need to move beyond interoperability to 
interdependency, which means the service components rely on 
capabilities brought to the joint fight by other service components. 
The services must shed their historical predilection for self-
sufficiency, or ``owning'' everything required to fight and win 
independently. The reason joint task force operations create synergies 
is because an interdependent approach allows each service to focus on, 
hone, and offer its core competencies. Services trying to control 
everything is unsustainable from a resource perspective and yields sub-
optimized, compromised capabilities. Control of all the capabilities in 
a fight is the role of the combatant commanders when employing forces. 
It is far better for the services to invest and excel in their 
respective domains.
    This idea is similar to doctors concentrating on healing the sick, 
and firemen focusing on rescuing people from burning buildings. Drawing 
out this analogy, such an approach means joint task force operations 
have at their disposal the abilities to both put out fires, and to cure 
sick people, no matter which is needed where--and both of these 
important tasks are being performed by specialists in their fields. The 
unfavorable alternative to interdependence is to have firemen also 
attempting surgical procedures, and physicians darting in and out of 
blazing structures between seeing patients.
    Effective jointness relies upon having separate services; it is an 
imperative that service members understand how to best exploit the 
advantages of operating in their domains. Articulating the virtues and 
values of a member's service is being ``joint.'' However, when a single 
service attempts to achieve warfighting independence instead of 
embracing interdependence, ``jointness'' unravels, trust is lessened, 
warfighting effectiveness is reduced, and costly redundancies and gaps 
will likely increase. We do not want to reduce the effectiveness of 
Goldwater-Nichols by allowing services to develop redundant ``organic'' 
capabilities, thereby rejecting the premise of joint warfighting.
    With a common context of the challenges of the future security 
environment; the rapid advance of technology and information flow; and 
a proper understanding of joint operations, I now address the four 
specific requests for comment by the Subcommittee on the future of all 
arms warfare in the 21st century, and specifically air-ground 
operations.
1.  An Assessment of the Future of Joint Force Air-Ground Combat 
        Operations Against Peer And Near-Peer Competitors.
    Beginning with Operation Desert Storm in 1991, in operations over 
the next decade, and into the beginning of the 21st century, nascent 
joint force operations, combined with advanced technologies and 
innovative concepts of operations aimed at achieving desired effects, 
have dominated conventional warfare. As a result, our adversaries and 
potential peer and near-peer competitors have watched and learned the 
lessons of what happens if the U.S. is allowed to project power into a 
region of interest. They have used this time to develop systems, 
concepts, and organizations to attempt to deny us in the future the 
advantages that our military has relied upon for success in the past.
    One of the most significant changes in the evolution of modern 
warfare is the result of the impact of the combination of three 
technological changes: 1) modern intelligence, reconnaissance, and 
surveillance (ISR) yielding persistent multi-spectral ISR; 2) the 
normalization of the use of precision weapons; and 3) the dramatic 
improvement of system survivability (stealth). This combination has 
resulted in the reversal of the traditional paradigm of the use of air 
and ground forces to defeat adversary forces. The traditional 
warfighting paradigm of ground forces leading the fight supported by 
air forces has been supplanted by a construct where air forces 
supported by ground forces is often a much more responsive, effective, 
efficient, and less costly--in terms of both lives and dollars--manner 
in which to conduct warfare. \2\ Validating this observation, a platoon 
leader during Operation Iraqi Freedom (Iraq 2003) at the leading edge 
of the push to Baghdad by the 1st Marine Expeditionary Force, wrote: 
``For the next hundred miles, all the way to the gates of Baghdad, 
every palm grove hid Iraqi armor, every field an artillery battery, and 
every alley an antiaircraft gun or surface-to-air missile launcher. But 
we never fired a shot. We saw the full effect of American air power. 
Every one of those fearsome weapons was a blackened hulk.'' \3\
---------------------------------------------------------------------------
    \2\ For a comprehensive treatment on this phenomena see, The Urgent 
Necessity to Reverse Service AirLand Roles, by Price T. Bingham, Joint 
Forces Quarterly 84, 1st Quarter 2017.
    \3\ Nathaniel Fick, One Bullet Away: The Making of a Marine Officer 
(New York: Houghton Mifflin, 2005), p. 289.
---------------------------------------------------------------------------
    In the context of this hearing, the point of raising this 
realization is not to start a doctrinal roles and functions fight 
between the Army and the Air Force, but rather to highlight the fact 
that capabilities change over time and the fundamental causes should be 
exploited to our Nation's warfighting advantage. This is particularly 
true in an era where near-peer adversaries are working hard to negate 
the warfighting advantages we have exhibited over the past quarter of a 
century.
    To best meet the challenges of future peer and near-peer 
adversaries we must continue to exploit modern ISR, routine precision 
strike, improvements in survivability, and maneuver by focusing on two 
key essential actions. First, unshackle the service-based 
organizational paradigms of the past and embrace more functional joint 
organizational constructs that can be achieved by greater integration 
of these elements. Second, rapidly capitalize on the capabilities of 
the information age to actualize the ubiquitous and seamless sharing of 
information across systems in every domain as a vision of the 
Department of Defense.
    We are at a critical juncture in history. We are at the center of 
an, ``Information in War Revolution'' where the speed of information, 
advance of technology, and designs of organizations are merging to 
change the way we operate. This change has dramatically shortened 
decision and reaction times, and reduced the number of weapon systems 
needed to achieve desired effects. In World War II it took months of 
time, thousands of Airmen, and hundreds of aircraft to neutralize a 
single target. Today we can find, fix, and successfully engage multiple 
targets with a single aircraft within minutes.
    Since the introduction of mechanized technology in the early 
twentieth century, the scale and scope of combat has been governed by 
industrial means of power projection. Advances in aircraft, ships, and 
ground vehicles increased speed, reach, and precision, but ``mass'' 
remained an essential aspect of force application. In the last century, 
military missions, historically restricted to land and sea, expanded 
into the air, space, and underwater domains. However, the ability to 
project power globally was wholly dependent upon mechanized technology.
    In the 21st century, we face another technology-driven inflection 
point that will fundamentally reshape what it means to project power. 
Advancements in computing and network capabilities are empowering 
information's ascent as a dominant factor in warfare. No longer will it 
be sufficient to focus on simply managing the physical elements of a 
conflict--planes, satellites in space, tanks, amphibious elements or 
ships at sea. These individual platforms have evolved from a stove-
piped, parochial service alignment to a loosely federated ``joint and 
combined'' construct today. To be effective in the future, these same 
forces must become a highly integrated enterprise collaboratively 
leveraged through the broad exchange of information.
    Said another way, desired effects of military operations will 
increasingly be attained through the interaction of multiple systems, 
each one sharing information and empowering one-another for a common 
purpose. This phenomenon is not restricted to an individual technology 
or system, nor is it isolated to a specific service, domain or task. It 
is a concept that can be envisioned as a ``Combat Cloud''--an operating 
paradigm where information, data management, connectivity, and command 
and control are core mission priorities.
    While mechanical technology will continue to serve as a key factor 
in future military operations, the information empowering these systems 
will stand as the backbone maximizing their potential. As the Combat 
Cloud is developed, it promises to afford an expansive, highly 
redundant defense complex with radically enhanced data gathering, 
processing, and dissemination capabilities. These attributes will offer 
actors at every level of war, and in every service component, 
dramatically enhanced situational awareness by transforming masses of 
disparate data into decision-quality knowledge. This represents an 
evolution whereby individually networked platforms transform into a 
broader system of systems enterprise integrated through domain and 
mission agnostic information linkages.
    This approach will not only change the way we define new 
requirements, but also more importantly, the way we think about; 
operations; intelligence; command and control; and support. A 
distributed, self-forming, all-domain Combat Cloud that is difficult to 
attack and self-healing when attacked, significantly complicates an 
enemy's planning and will compel enemies to dedicate more resources 
toward its defense and offense. In its ultimate instantiation, Combat 
Cloud will be: 1) strategically dislocating to any challenger; 2) 
provide conventional deterrence to a degree heretofore only achieved by 
nuclear weapons; and 3) will enable operational dominance in multiple 
domains.
    Turning this vision into reality will require a significant effort. 
While many militaries are evolving toward informationized forces, the 
integration and assimilation of related capabilities is incomplete. 
Forces are still predominantly organized, trained and equipped to fight 
a mechanized war--one in which information integration is a secondary 
support function. Most bureaucratic organizations and current programs 
of record reflect the linear extrapolation of combined arms warfare 
construct developed in the industrial age of warfare. Program oversight 
efforts within the DOD are also lagging--with antiquated industrial age 
governance impeding information-age endeavors.
    Any assessment of the likely landscape of future conflict with peer 
and near peer adversaries must recognize that no matter what type of 
engagement occurs, the outcome will increasingly be determined by which 
side is better equipped and organized to collect, process, disseminate, 
understand, and control information. Furthermore, with budget austerity 
as the new normal our military needs to devise more effective and 
efficient means to secure desired effects with existing capabilities. 
The Combat Cloud concept is a paradigm that allows us to do this.
    If we, along with our allies, are going to win the next war, we 
need to gain persistent access to data networks while denying this same 
capability to any adversary. To be serious about this effort, military 
services need to embrace doctrinal and concept changes to how their 
forces are organized, trained, and equipped. The concept of the Combat 
Cloud stands as a framework to empower this vision.
    In the current program-centric budgetary world of DOD, narrow focus 
on individual platforms, sensors, and weapons is the norm. Absent a 
clear definitive vision, and without a strategy to realize that vision, 
the big picture is lost among a collection of disparate, disconnected 
systems that are often kluged-together to pass as ``joint.'' This is 
why DOD needs to embrace the vision of attaining a joint and combined 
Combat Cloud. Future combined and joint operations will require new 
concepts and practices for how to join together and command and control 
desired effects; and distributed battle, intelligence, and surveillance 
networks.
    Commanders must change the way they view networks and information 
systems. Rather than value only the weapons and platforms that launch 
them, commanders need to recognize the value of the effects they can 
create based on the seamless sharing of information. This shift in 
perspective will involve much more than simply material changes 
involving technology. Indeed this is a completely different way of 
thinking about how we will use weapon systems in the future. 
Transitioning from industrial age, platform-centric methods of force 
employment to an interconnected, information-driven model involves 
numerous challenges. It will require a review of, and appropriate 
changes to doctrine, organization, training, material, leadership, 
personnel and education, facilities, and policy to define a 
``template'' to guide modernizing policy, acquisition, and concepts of 
operation; seeking collaborative solutions among the services; moving 
from measures of merit that replace cost per-unit to cost per-desired 
effect; eliminating stove-piping of kinetic and non-kinetic options; 
developing reliable, robust, and anti-jam data links; creating 
sufficient diversity of employment approach to avoid single points of 
failure; and realizing automated multi-level security to ensure 
coalition participation.
2.  The Conduct of Offensive Operations Against Adversaries in Anti-
        Access, Area Denial Environments.
    Over the last quarter-century that the U.S. has dominated military 
operations, our air forces have been fighting in relatively permissive 
airspace. Similarly, our ground forces have been engaged in 
counterinsurgency and counterterrorism fights with little exposure to 
modern high-tech threats. Combat operations against peer and near-peer 
competitors in anti-access, area denial environments will demand a new, 
more agile, and integrated operational framework for the employment of 
U.S. military power to succeed. While terrorism and insurgencies have 
proliferated more than traditional conventional combat since 9/11, a 
failure to be ready for state on state warfare would be catastrophic. 
We must be ready to engage and succeed across the entire spectrum of 
conflict.
    Warfare against an adversary in an anti-access, area denial 
environment of the future will be very different than the experience of 
the members of the U.S. military today. \4\ Heavy armor; barrages of 
theater ballistic missiles; rear areas under attack; surface to air 
missiles ranging hundreds of miles; smart mines; quiet submarines 
interdicting friendly shipping; anti-satellite capabilities shutting 
down GPS; non-stealthy friendly drones falling from the sky like rain--
are all more likely to characterize warfare in the future than will the 
treatises of the recent past on sharing ``three cups of tea,'' and 
``eating soup with a knife.'' \5\
---------------------------------------------------------------------------
    \4\ Over 80 percent of the active duty U.S. military has joined 
since 9/11/2001, so their experience is primarily in the 
counterinsurgency and counterterrorism environments of Iraq and 
Afghanistan.
    \5\ Three Cups of Tea: One Man's Mission to Promote Peace--One 
School at a Time, and Learning to Eat Soup with a Knife: 
Counterinsurgency Lesson from Malaya and Vietnam were popular books 
reinforcing the primacy of counterinsurgency warfare that affected the 
first decade of the 21st century.
---------------------------------------------------------------------------
    Furthermore, if we are to succeed in fighting in anti-access and 
area denial environments, critical areas that require serious attention 
are not getting it. Potential opponents capable of creating an anti-
access, area denial environment are capitalizing on electronic warfare 
(EW) tools and techniques to do so. The proliferation of high-end 
electronics has made offensive cyber operations and EW the modern 
military equalizers. Russia is now routinely attacking Ukraine and the 
Baltic states via the net. As a nation we are losing hundreds of 
billion dollars a year of commercial/military value due to Internet 
thefts. Many of China's newest weapons systems look eerily familiar to 
United States systems--they should, they stole our designs. However, in 
the DOD, getting traction for electronic warfare requirements and 
investment is painfully slow, and inadequate to properly prepare us for 
the future. Here is what the DOD electronic warfare strategy states in 
its introduction, ``...our EW work force is currently fragmented and 
ill-equipped to dominate a pacing competitor.'' \6\ In 2014 the Defense 
Science Board highlighted the insufficient attention paid to electronic 
warfare by all Services, and recommended a 75 percent markup in 
electronic warfare investments over the next 5 years--from $3 billion a 
year to over $5 billion a year. Electronic warfare is no longer just an 
enabling capability--it is a survival capability.
---------------------------------------------------------------------------
    \6\ The Department of Defense Electronic Warfare Strategy, 2017, 
p1.
---------------------------------------------------------------------------
    We need sufficient numbers of advanced munitions to prevail in the 
high-end anti-access, area denial fights of the future. Today we are we 
are running low on these kind of munitions due to their regular use in 
conflicts in southwest Asia. We also need to pay attention to the 
numbers and capabilities of the people required to accurately target 
these advanced weapons. In Desert Storm only about 5 percent of all the 
weapons employed were precision-guided, but we had over three times the 
number of targeteers in our intelligence force than we have today where 
precision weapons now make-up over 95 percent of weapons employed from 
our combat aircraft.
    However, these needed resources are going unfunded because there is 
little public awareness of the problems we face relative to the 
reduction in resources allocated to Defense. As a result, the hollow 
force that the 2011 budget control act and sequestration it imposed 
will not be readily apparent until those forces are required. What is 
so devastating about the 2011 budget control act--and not obvious in a 
20 second sound byte--is that it is now affecting U.S. capability to 
provide rapid response sufficient to meet the demands of our national 
security strategy. Said another way, we have a growing strategy-
resource mismatch. The dichotomy between what we say we want to 
accomplish, and what we can actually accomplish is growing. Without 
action to eliminate sequestration, that mismatch will get worse. I 
believe it is vitally important to remember that the first 
responsibility of the United States government is the security of the 
American people. As the preamble of our Constitution states, the 
federal government was established to first, ``provide for the common 
defense'' and subsequently to, ``promote the general welfare.'' Recent 
decisions have confused this prioritization, with sequestration taxing 
defense spending at a rate greater than twice its percentage of the 
total federal budget. It is time to return to the first principles of 
our Constitution and get our priorities straight.
    The most important element in the U.S. military's ability to fight 
and win in any conflict in the future--much less against one in an 
anti-access, area denial environment--is restoring the readiness that 
has been robbed from it by the irresponsible budget control act of 
2011. No amount of innovation, reorganization, or restructuring will 
allow the U.S. military to succeed in meeting its national security 
objectives without proper equipment, tools, people, and training 
essential to execute its assigned missions. Air Force Chief of Staff, 
Gen David Goldfein succinctly described the criticality of the role of 
the Congress in this regard when he stated, ``There is no enemy on the 
planet than can do more damage to the United States Air Force than us 
not getting a budget.'' \7\
---------------------------------------------------------------------------
    \7\ Gen David Goldfein, remarks to the Center for Strategic and 
International Studies in Washington, D.C., Feb 23, 2017 as reported in 
the Air Force Association Daily Report, Feb 24, 2017.
---------------------------------------------------------------------------
    Warfare is evolving as we transition out of the industrial age and 
further into the information age. Advancements in computing and network 
capabilities are empowering the ascent of information as a dominant 
factor in warfare. Accordingly, we must be bound by a common 
appreciation for the value of sharing information as a critical element 
of national security operations. This is about a vision--aptly 
described as Fusion Warfare based on building a Combat Cloud--moving 
beyond combined arms and into an approach of combined effects power. 
\8\ The kind of combined effects resident in a unified ISR, strike, 
maneuver, and sustainment complex integrated across the electromagnetic 
spectrum.
---------------------------------------------------------------------------
    \8\ For greater insight into this concept for thinking about 
warfare in the 21st century see; Rokke, Drohan, Pierce, Combined 
Effects Power, Joint Forces Quarterly 73, 2nd Quarter 2014.
---------------------------------------------------------------------------
    The Combat Cloud inverts the paradigm of combined arms warfare--
making information the focal point, not the domains in which the 
military operates. This concept represents an evolution where 
individually networked platforms--in any domain--transform into a 
``system of systems'' enterprise, integrated by domain and mission-
agnostic linkages.
    Capabilities from any domain can contribute to precision effects in 
and across all five domains. In order to maximize operational agility 
against advanced adversaries, actions must be designed to include 
integrated operations and effects in more than one domain. Desired 
effects must be well timed, synchronized, immediately assessable, and 
scalable. Soldiers, sailors, airmen, and marines must collaborate with 
joint and coalition counterparts and with networked experts worldwide 
to synthesize combinations of kinetic/non-kinetic, lethal/non-lethal, 
direct/indirect, and permanent/reversible effects, striking targets in 
hours, minutes--or seconds.
    To succeed against an adversary in an anti-access, area denial 
environment you must encourage the Department of Defense to develop and 
embrace concepts that have as their basis, the linking of information-
age aerospace systems with cyber, sea, and land-based capabilities in 
ways that will enhance their combined effectiveness, while compensating 
for their individual vulnerabilities.
3.  The Key Attributes of a Modern, Fully Integrated Joint Air-Ground 
        Theater Joint Task Force Capable of Decisive Offensive 
        Campaigns.
    By definition, anti-access, area denial environments will 
complicate, if not hinder, our ability to conduct offensive operations. 
As potential adversaries expand their anti-access, area denial 
capabilities, our ability to conduct offensive operations is reduced, 
especially if we fail to keep pace by inadequately investing both 
qualitatively and quantitatively in advanced technology. I have the 
fullest confidence that our armed forces can currently achieve any 
military objective they are given. However, the sacrifices in 
casualties our service members will have to make to achieve those 
objectives are increasing. As our forces get older, our capabilities 
relative to modern threats are declining, while investment to reverse 
these negative trends is still not adequate.
    Standoff ranges imposed by area denial capabilities degrade the 
effectiveness of long-range sensors in a highly contested environment. 
To overcome these limitations, the Air Force must build an integrated 
network of air, space, and cyberspace-based capabilities and leverage 
other service contributions from all domains to achieve a robust, 
reliable, redundant, sustainable means of sensing, commanding and 
controlling, and employing effects to meet mission objectives. 
Underlying this set of capabilities is the Combat Cloud operating 
paradigm where every platform is capitalized upon as both a sensor as 
well as an ``effector.'' This vision will enable more rapid and 
effective decisions at the tactical, operational, and strategic levels 
of war and will provide us an operating advantage that will be 
difficult for any adversary to overcome. Key capability development 
areas in the Air Force to achieve this kind of operating paradigm 
include:

    a. Data-to-Decision: The objective is to fuse data from cloud-based 
sensor-effector networks into decision quality information for use at 
the tactical as well as operational levels of war. Machine-to-machine 
automation will be integral to allow for the rapid turning of data into 
information and knowledge to inform decision-making. Big data 
analytics; incorporation of all-source information; and sensor-to-
sensor cueing must become the norm, not the exception in creating a 
combat cloud.
    b. ISR Collect and Persistent ISR: These are capabilities that 
focus on multi-domain alternatives for placing the right sensor in the 
right place at the right time.
    c. Penetrating Counter-air (PCA): PCA maximizes tradeoffs between 
range, payload, survivability, lethality, affordability, and 
supportability to achieve penetrating counter-air effects in anti-
access, area denial environments. Establish PCA as a network nodal 
element to relay data from penetrating sensors enabling the employment 
of standoff or stand-in weapons.
    d. Agile Communications: This is increase in the resiliency and 
adaptability of integrated networks. Focus on responsive, adaptable 
network architectures with functionality across all platforms, weapons, 
apertures, and waveforms operating in a highly contested environment.

    Each of the services are working to create architectures to rapidly 
sense, collect, process, and analyze data; turn it into knowledge; and 
then disseminate it among their component forces to create desired 
effects. The DOD vision must be to integrate each of the service 
architectures to create a joint Combat Cloud where information and 
knowledge is shared in a ubiquitous and seamless fashion.
    A fully integrated joint air-ground theater joint task force 
capable of decisive offensive campaigns must be capable of disrupting 
key adversary systems, especially air defenses. A prerequisite to 
effective joint operations--a sine qua non--is the need to gain and 
maintain air superiority. In all recent operations, we have gained air 
superiority rapidly and have not faced threats denying us freedom of 
action. In a contested environment, air superiority will be 
continuously important and will pace all other operations.
    The recently released Air Force Air Superiority Flight Plan states, 
``The Air Force's projected force structure in 2030 is not capable of 
fighting and winning against the array of potential adversary 
capabilities.'' This is an official statement from the United States 
Air Force, and that statement should concern you, because without air 
superiority there can be no successful land (or sea surface) 
operations.
    Developing and delivering air superiority for the highly contested 
environment in 2030 requires a multi-domain focus on capabilities and 
capacity. Importantly, the rapidly changing operational environment 
means the military can no longer afford to develop weapon systems on 
the linear acquisition and development timelines using traditional 
approaches.
    Air superiority--as well as other military capability development--
requires adaptable, affordable and agile processes with increasing 
collaboration between science and technology, acquisition, requirements 
and industry professionals. Failure to adopt agile acquisition 
approaches is not an option. The traditional approach guarantees 
adversary cycles will outpace U.S. development, resulting in ``late-to-
need'' delivery of critical warfighting capabilities and 
technologically superior adversary forces.
    In the future we must possess an agile operational framework that 
enables the integrated employment of joint and allied military power. 
It means taking the next step in shifting away from a structure of 
segregated land, air, and sea warfare approaches to truly integrated 
operations.
    The central idea is cross-domain synergy. The complementary 
employment of capabilities in different domains, instead of merely 
additive employment, is the goal--such that each capability enhances 
the effectiveness of the whole, and compensates for the vulnerabilities 
of other assets. This combined effects approach will lead to 
integrating existing and future operations across all the domains with 
an agile operational framework guided by human understanding.
    The reconnaissance-strike group (RSG) organizational construct 
posited by Doug Macgregor is a step in the right direction in this 
regard. This concept would provide the Army an organizational entity 
that at its core is interdependent with the other service components--
particularly the Air Force--for its success. Conversely, it provides 
the impetus to the other services to develop and provide capabilities 
to dramatically enhance the effectiveness of the RSG as a means to 
better secure joint task force objectives.
    Beyond the RSG, all the services, and combatant commands need to be 
focusing on moving to a future operating paradigm of the Combat Cloud. 
The Combat Cloud is not simply a network, but an operating concept that 
integrates every warfighting platform as a node in the ISR, strike, 
maneuver, and sustainment complex. Because of its nature as a 
distributed sensor-shooter-effector composite, it will require command 
and control standards and sets of operating procedures different from 
that which the services employ today. It must possess a command and 
control structure capable of operating within multiple domains and 
across multiple echelons while allowing operational units to operate 
interdependently with shared knowledge in a contested area. United 
States forces can continue to operate, to move the fight, by 
understanding commander's intent and guidance through mission 
directives or orders. The command and control structure must be 
adaptive and responsive enough to support decentralized execution with 
authorities delegated to the lowest echelon practical.
    In the future, increases in threat warfighting capability that can 
hinder or deny traditional U.S. warfighting advantages will grow. In an 
era of constrained resources, the best bet for defeating modern threats 
is implementing the Combat Cloud concept. This approach will not only 
change the way we define new requirements, but more importantly, the 
way we think, command, control, and operate those systems. This is the 
essence of the Combat Cloud--it is not just the network--it is the 
entire enterprise of sensors; shooters; effectors; and connectors, all 
part of a cohesive, coherent whole and it must extend across all 
operating domains.
4.  The Challenges Of Deploying And Sustaining Expeditionary Forces 
        Across The Globe.
    The major challenges of deploying and sustaining expeditionary 
forces across the globe are two-fold. First there is the difference in 
the nature of air and land forces. Air forces can be rapidly deployed 
and employed anywhere in the world in a matter of hours even from 
thousands of miles away. Land forces, unless predeployed to the 
specific area of concern, take weeks or months to deploy depending on 
the size of the force elements required.
    Second, the explosive growth in the ease and speed at which ideas 
and technologies are created and spread around the world has yielded a 
new, more unpredictable threat environments. Rapid advancements in the 
capabilities of our potential adversaries, notably in electronic 
warfare, cyber, drones, and long-range precision attack, all present 
unique challenges and expose vulnerabilities. Our ability to deploy and 
sustain forces to areas needed for deterring or countering malicious 
actors or adversaries is becoming ever-more contested and subject to 
reach by surface-to-surface and surface-to-air weapons.
    The spread of advanced technologies, enhanced by rapid advances in 
computing power, places increasingly sophisticated ballistic and cruise 
missiles, integrated air defense systems, submarines, anti-ship 
missiles, guided rockets, fourth and fifth-generation aircraft, as well 
as advanced space and cyber capabilities in the hands of potential 
adversaries. The range and scale of possible effects with these new 
capabilities present a new military problem set that threatens the U.S. 
and allied expeditionary warfare model of power projection, freedom of 
action, and maneuver.
    The necessity of deploying and sustaining expeditionary forces 
across the globe is absolutely fundamental to the U.S. national 
security strategy. There are two enduring tenets of our national 
security strategies over the years regardless of Administration party 
affiliation. One, that we will maintain sufficient forces and 
capabilities to engage around the world to encourage peace and 
stability to prevent conflict. Two, that in the event that conflict is 
unavoidable, we will maintain the ability to fight and win in more than 
one conflict at a time and do so away from United States territory.
    In order to be able to accomplish both of these fundamental tenets, 
each of the services requires a set of robust, capable, and ready 
forces to establish a rotational base sufficient to sustain operations. 
To do that the Air Force uses its ``Air and Space Expeditionary Force'' 
(AEF) structure to maintain sufficient numbers of rotational base 
forces to engage in regions around the world to shape and maintain 
peace and stability. AEFs provide joint force commanders with ready and 
complete air and space forces to execute their plans.
    In the most demanding anti-access/area denial scenarios, the U.S. 
will be challenged to do what it has become accustomed to doing: 
building up combat power in an area, sustaining that force, performing 
detailed rehearsals and integration activities, and then conducting 
operations when and where desired. AEFs provide a construct for the 
potential of better teaming with the Army on a regular and recurring 
basis to organize, prepare, and train together so when it does come 
time to fight, our air and land forces present seamless capability.
    During the 2000/2001 Quadrennial Defense Review (QDR) where I was 
the lead of the Air Force QDR team, I suggested to my Army counterpart 
that we consider assigning and teaming Army warfighting units with Air 
Force AEFs specifically for this purpose. I was told by him that the 
Army was a garrison-based force and didn't need to train for or 
practice for expeditionary deployments. That was before 9/11 and much 
has transpired since then.
    With the potential of the interdependent RSG, and its ISR and 
strike components that parallel Air Force capabilities, it may be time 
to move toward greater air land interdependency by aligning RSGs with 
AEFs at some point in the future. The characteristics of the RSG as 
lighter; more agile; more mobile; and more interoperable than current 
Army warfighting organizational structures, opens the possibility of 
much greater synergy with the air, space, and cyber capabilities of the 
Air Force. RSGs matched with AEFs provide the basis for a step increase 
in the partnership between air and land force organizations in the 
future.
    Ten AEFs provide the framework to achieve sufficient expeditionary 
aerospace forces to sustain rotational base requirements and personnel 
tempos to meet the dual requirements of our security strategy. The key 
to Air Force expeditionary force structure is to ensure that those ten 
AEFs are structured, equipped, and equivalent in capability and 
capacity for each of the Air Force's mission areas: gaining control of 
air, space, and cyberspace; holding targets at risk around the world; 
providing responsive global integrated ISR; rapidly transporting people 
and equipment across the globe; and underpinning each of these unique 
contributions with robust, reliable, and redundant global command and 
control. Aerospace capability does not stop with expeditionary assets. 
Space, ISR, cyber, national missile defense architecture, inter-theater 
airlift, and others, provide the foundation upon which the AEF 
structure stands. To meet the Nation's security challenges of the 
future, the Air Force will require sufficient force structure to 
maintain both an adequate rotational base of expeditionary 
capabilities, as well as its foundation--that level of force structure 
does not exist today. Currently, the Air Force does not have ten 
equally capable AEF's--it ``borrows'' those forces in training to make 
those preparing to deploy whole.
    In the face of the expanding set of threats around the globe, the 
United States government has elected to fund fewer resources to meet 
them. \9\ At the same time, our aerospace capabilities have reached an 
inflection point. Last year we celebrated the 25th anniversary of 
Operation Desert Storm--the first Gulf War. Your Air Force has been at 
war not just since 9/11/2001, but since 1/16/1991. After over 25 years 
of continuous combat operations coupled with budget instability and 
lower-than-planned budget top lines have made the Air Force the 
smallest, the oldest, and the least ready force in its entire history.
---------------------------------------------------------------------------
    \9\ In 2009 the U.S. spent 4.6 percent of its gross domestic 
product (GDP) on defense. In 2017 the U.S. spent 3.2 percent of its 
gross domestic product (GDP) on defense.
---------------------------------------------------------------------------
    Yet, our nation faces an ever growing and evolving list of 
challenges. While each of them drive an increase in the demand for 
aerospace power, the Air Force has to deal with unpredictable and 
eroding budgets that have shrunk force structure, as well as the 
defense industrial base upon which it heavily relies.
    Today we have 59 percent fewer fighter squadrons than during 
Operation Desert Storm in 1991 (134 in 1991, 55 today). We have 30 
percent fewer people, and 37 percent fewer total aircraft. At the 
height of the hollow military of the 1970's, and when President Reagan 
took office pledging to rebuild it, our Air Force aircraft averaged 12 
years of age. Today the average age of Air Force aircraft is over 200 
percent older . . . 28 years.
    The Air Force is operating a geriatric force that is becoming more 
so every day. Bombers and tankers over 50 years of age, trainers over 
40, fighters and helicopters over 30--for comparison purposes the 
average age of the U.S. airline fleet is about 10 years . . . and they 
don't pull 6 to 9 ``Gs'' on a daily basis as do our fighters. Pilots 
are qualifying on the same bombers and tankers that their grandfathers 
qualified on.
    In the 70's, nearly half our military planes could not fly because 
there were no spare parts and proper maintenance. It is just as bad 
today. Between 2009 and 2018, the US military will sustain budget cuts 
totaling over $1.5 trillion dollars. Many of these cuts have been 
arbitrary and not reflected in strategy or analysis. Yet, the demand 
for airpower keeps growing while the Air Force is seriously 
underfunded. This is perhaps the greatest challenge to deploying and 
sustaining expeditionary forces across the globe.
                               conclusion
    The challenge before us is to transform today to dominate an 
operational environment that is rapidly evolving, and to counter 
adversaries who are rapidly advancing in capability. The 9/11 
commission report's now famous summary that the cause of that disaster 
was a ``failure of imagination'' cannot be allowed to be repeated 
across our security establishment.
    I finish with a plea for new thinking. In the face of disruptive 
innovation and cultural change, the military can maintain the status 
quo, or it can embrace and exploit change. I suggest that the latter is 
preferred. Our services need to learn better how to rapidly adapt new 
technology to the innovative concepts of operation that technology 
enables. Our intelligence community, military, and other security 
institutions will suffer if their internal organizations fail to adapt 
to new, disruptive innovations and concepts of operation.
    Just as combat tomorrow will look different than it did yesterday, 
so too should the military with which we prosecute it. We should take 
maximum advantage of the asymmetric capabilities America possesses with 
her air, space, and cyber forces operating in conjunction with her land 
and maritime forces in innovative ways. A concerted focus on further 
developing and expanding these forces would serve the United States 
well, as they are uniquely positioned to underpin the kind of defense 
strategy and force structure appropriate to America's future.
    One of our most significant challenges is the structural and 
cultural barriers that stifle new ideas that challenge the status quo. 
That is the challenge for not just our military, but for all the other 
pillars of our national security architecture. We must challenge our 
institutions to have an appetite for innovation--and a culture that 
rewards innovative solutions. I encourage you to embolden our military 
to seek out, experiment, and test new concepts of organization and 
operation.

    Senator Cotton. Thank you, General.
    Colonel Macgregor?

   STATEMENT OF COLONEL DOUGLAS A. MACGREGOR, USA (RETIRED), 
     EXECUTIVE VICE PRESIDENT OF THE BURKE-MACGREGOR GROUP

    Mr. Macgregor. Mr. Chairman and Senator King, members and 
staffers, thanks very much for inviting me to be here today. I 
appreciate it.
    I too am going to provide some points rather than go 
through in detail the 5,000-word statement for the record, 
which I am sure you are grateful for. But I do encourage you to 
read it.
    To continue the discussion that my colleague on my left, 
Dave Deptula, has begun, first of all, we--that is, Americans 
in general--have missed a number of strategic inflexion points 
over the years, points in time where the rules of the game, the 
rules set governing how warfare is conducted have changed. We 
have simply missed those.
    An excellent example was before the First World War. We 
fought a very long and hard campaign in the Philippines to 
suppress an insurrection. We lost 6,000 men, had 3,000 wounded 
in the space of about 3 and a half years. That insurrection, 
hard-fought campaign that it was, taught us the importance of 
the individual riflemen and the rifle squad because it was the 
kind of war that exalted the riflemen and the squad.
    Unfortunately, there was another war well underway at the 
time, almost immediately after our insurrection ended, called 
the Russo-Japanese War in 1905. That was a very different war 
that caused hundreds of thousands of lives, Japanese and 
Russian, introduced the world to machine guns, massed artillery 
fire, barbed wire, mines. Unfortunately, we did not pay very 
much attention to it, and the general officers in the United 
States Army and, by the way, in the British and the French 
armies who did look at it tended to extract lessons from that 
experience that reinforced their preferences, which was for 
more men with rifles.
    The consequence of having missed this inflexion point was 
that we lost 1,000 dead in every battle that we fought during 
World War I. Keep in mind, ladies and gentlemen, we only fought 
for 110 days. We took 318,000 casualties. We were simply 
unprepared for that battlefield. We were not trained properly. 
We really were not equipped properly, and we sustained enormous 
losses as a result.
    The reason I bring that up is that we have just had a hard-
fought campaign in the Middle East. It is not over by any 
means. But we have fought very hard for a very long time 
against a very specific kind of enemy, reminiscent in many ways 
of the insurgents in the Philippines. But at the same time, we 
are seeing events in eastern Ukraine, even now events in Syria 
involving larger forces, conventional forces, and as Senator 
King pointed out, these hybrid forces that consist of the full 
range or spectrum of military power. The lethality of these 
battlefields is striking. It is frightening.
    So I think the lesson that we have to take away from this 
is that we have to be prepared to accept the fact that the 
organizations, the structures of the recent past, and the 
lessons of the recent past may not do very much to prepare us 
for what lies ahead.
    Now, the joint operational concept, all arms-all effects 
warfare, and its supporting operational framework, which I hope 
we will discuss today in some detail, the ISR, strike, 
maneuver, sustainment complex, is, ladies and gentlemen, the 
military equivalent of ``Moneyball.'' For of those of you who 
have been to the movies and seen ``Moneyball'' with Brad Pitt 
who played Billy Beane, it was based on a Michael Lewis book 
about profound change in baseball. What Billy Beane did was 
that he looked at what he said was analytical, evidence-based 
evidence to create a box score. He looked at each individual 
player, assessed their capabilities, then looked at the 
collective capabilities of the team from a very radically new 
standpoint. The outcome was that he turned in a brilliant 
record, and his approach is now widespread in professional 
baseball.
    We are talking today about effectively the same thing. We 
have something called the reconnaissance strike group, a 6,000-
man prototype formation that is in the current national defense 
authorization bill. It is effectively ``Moneyball.'' It is an 
attempt to cast aside a lot of the conventional wisdom and 
assumptions about warfare in the past and to look at warfare 
through a very different lens, through this ISR, strike, 
maneuver, sustainment lens, through the lens of cross-domain 
operations in warfare, through the lens of integrative 
operations, and then finally, to look at integrative command 
structures because we know from experience that when war comes 
along, the biggest mistake you can make is to march into it 
with single service headquarters that have to be painfully 
lashed up to create some measure of effectiveness for a new 
enemy. That is simply not going to work for us in future 
conflicts and crises in the 21st century.
    So we have to begin to look at innovative and integrative 
command structures that already integrate members of all the 
services in a way that creates coherence across service lines 
in a coherent view of warfare. This involves full spectrum, 
rapid prototyping not just of technology but of the human 
organizational construct, looking at this combination of human 
capital and technology in new ways across service lines.
    So I hope we will have the opportunity to discuss these 
issues in detail, and I look forward to your questions. Thank 
you, sir.
    [The prepared statement of Mr. Macgregor follows:]

               Prepared Statement by Douglas A. Macgregor
    Mr. Chairman (Senator Cotton), Senator King (ranking member), and 
members of the Air-Land Subcommittee of the Senate Armed Services 
Committee, thank you for inviting me to appear today to present my 
thoughts on ``all arms'' warfare in the 21st century, and their 
implications for Army force design in the context of a fully integrated 
joint air-ground theater joint task force (JTF).
    The American Republic, the U.S. Armed Forces and the U.S. Army 
stand at the cross roads of history. We cannot predict with certainty 
what great power or constellation of great powers may directly 
challenge the United States in 5, 10 or 20 years. But we can say with 
confidence that the outcome of a future major regional war involving 
the existential interests of the American Republic will be determined 
by the preparations we make during the next 5-10 years.
    We know from blood-spattered experience that armed forces and 
armies in particular are more often defeated in war by clinging to 
doctrine, tactics and organizations that evolved from earlier 
successful operations than by the superior skills and capabilities of 
their opponents. \1\ In this connection, the contemporary U.S. Army is 
in a strategic position reminiscent of the two decades that preceded 
the First World War (WW I).
---------------------------------------------------------------------------
    \1\ J.F.C. Fuller, Memoirs of an Unconventional Soldier, (London, 
UK: Ivor Nicholson and Watson Ltd, 1936), page 26.
---------------------------------------------------------------------------
    From 4 February 1899 - 2 July 1902 roughly 126,000 U.S. Troops 
consisting primarily of infantry, cavalry, and horse-drawn artillery 
fought 80,000 to 100,000 Filipino insurgents supported by perhaps 
another hundred thousand Filipino auxiliaries. In a hard fought 
campaign that lasted more than three years approximately 6,000 U.S. 
soldiers were killed and 2,818 were wounded. Filipino combat losses 
exceeded 16,000, while Filipino civilian casualties numbered up to 
200,000. \2\
---------------------------------------------------------------------------
    \2\ Timothy K. Deady, ``Lessons from a Counterinsurgency: The 
Philippines 1899-1902,'' Parameters, spring 2005, page 64.
---------------------------------------------------------------------------
    The Army's experience of combat in the Philippines confirmed the 
Army generals' opinion that the rifleman rather than massed artillery 
fire was the decisive factor in warfare. \3\ This was certainly true 
for the Philippine insurrection, but WW I demonstrated the reverse: 
Accurate, quick-firing heavy artillery in combination with mines, 
machine guns and, eventually, tanks and aircraft, constituted a new 
dominant paradigm of warfare.
---------------------------------------------------------------------------
    \3\ Edmund Morris, Theodore Rex, (New York, NY: The Modern Library, 
2001), page 127.
---------------------------------------------------------------------------
    Nevertheless, like the generals commanding the British and French 
Armies, the United States Army's senior leadership failed to grasp this 
reality even though the 1905 Russo-Japanese War actually threw it into 
sharp relief. \4\ The results were tragic. In 110 days of fighting 
during 1918, the U.S. Army sustained 318,000 casualties including 
115,000 dead. In other words, on average, 1,000 American infantrymen 
died in every battle fought against the German Army. \5\
---------------------------------------------------------------------------
    \4\ Paddy Griffith, Battle Tactics of the Western Front: The 
British Army's Art of Attack 1916-1918, (New Haven: Yale University 
Press, 1994), pages 48-49.
    \5\ Leonard P. Ayres, Colonel, US Army, The War with Germany: A 
Statistical Summary, (Washington, DC: Government Printing Office, 
August 1919), pages 121-123.
---------------------------------------------------------------------------
    In a parallel analysis, suppressing the rebellion in the 
Philippines no more prepared the United States Army for World War I 
than the last 15 years of suppressing insurgents in Iraq and 
Afghanistan will prepare the United States Army for a future war 
involving peer or near-peer opponents. Yet, whereas the Philippine 
Insurrection made little difference to the grand sweep of human 
history, the United States Army's arrival on the battlefields of France 
in 1918 rescued French and British Forces from defeat and changed the 
course of world history.
    The WW I experience helps to explain why the U.S. Army's future, 
exploitation of powerful new warfighting technologies and the emergence 
of a new, integrated, ``All Arms-All Effects'' warfighting structure--
the ISR (intelligence, surveillance, reconnaissance)-STRIKE (standoff, 
beyond-line-of-sight attack, theater air and missile defense)-Maneuver 
(positional advantage on land)-Sustainment (logistics) Complex--must 
not be constrained by the insertion of new technologies into 
organizational constructs in use since 1942 or tactics tied to the 
recent past. \6\ Streamlined, integrated Command and Control (C2) on 
the operational level of war will not only deliver the timely and 
effective integration of warfighting capabilities across Service lines, 
joint integrated C2 promises a profound strategic advantage in war that 
will save American lives. With these points in mind, my presentation is 
organized into three sections:
---------------------------------------------------------------------------
    \6\ ``Strike'' as defined here can be kinetic or non-kinetic 
depending on the mission.

    1.  Section I briefly sketches the environmental character of 
future operations against adversaries deployed into anti-access, area 
denial positions from an Army perspective;
    2.  Section II addresses the new Joint Operational Concept of ``All 
Arms-All Effects,'' Cross Domain warfare and the concept's 
implementation through the ISR-STRIKE-Maneuver- Sustainment Complex and 
the Sustainment required to support a fully integrated joint air-ground 
theater JTF;
    3.  Section III examines the need for integrated command and 
control in the form of Standing Joint Force Commands to conduct 
integrated, ``All Arms-All Effects warfare'' and the strategic 
implications for sustainment operations.
    4.  Summary and (2) Recommendations.

    Before turning to the first section, it is important to understand 
that the rapid assembly of Army ground forces anywhere on the greater 
Eurasian landmass depends on several preconditions: First, the creation 
of hardened national space-based C4ISR infrastructure combined with 
resilient, integrated cyber capabilities for electromagnetic spectrum 
domain dominance; Second, the availability of large numbers of 
advanced, survivable long-range reconnaissance and strike, manned and 
unmanned, aircraft with stand-off precision weapons; and, Third, U.S. 
Army ground forces developed, organized, trained and equipped from the 
bottom up for joint, integrated operations.
    Otherwise U.S. Forces are unlikely to prevail against an 
established major power or alliance of regional powers fighting to 
sustain or expand their regional dominance. A long, arduous and 
exhausting conflict, rather than a decisive victory, would then ensue; 
the worst possible outcome for an American society intolerant of heavy 
casualties and the reduced living standards that such a war would 
entail.
               section 1 (character of future operations)
    Predicting the character of future conflict is always hazardous. 
Every war is unique, requiring an understanding of the warring parties' 
intentions, as well as, their capabilities. Yet, there is one 
inescapable conclusion about the future character of warfare: The 
proliferation of precision strike and persistent surveillance 
technologies presents extraordinary challenges to the projection of 
U.S. Military power.
    Many countries, not just China and Russia, are developing and will 
implement A2AD strategies. \7\ They will exploit sea mines, space and 
terrestrially based surveillance, precision strike, cyber-attacks, and 
electronic warfare to create ``no-go'' zones into which it will be 
difficult and costly for the United States to project military power. 
\8\ In a future conflict with near-peer or peer nation-state opponents 
on the Eurasian landmass, U.S. Forces must anticipate all or most of 
the following conditions:
---------------------------------------------------------------------------
    \7\ Ankit Panda, ``After China, India Will Become Second Buyer of 
Advanced Russian S-400 Missile Defense Systems,'' The Diplomat, 5 
November 2015. http://thediplomat.com/2015/11/after-china-india-will-
become-second-buyer-of-advanced-russian-s-400-missile-defense-systems/
    \8\ Barry Watts, ``Precision Strike: An Evolution,'' 
NationalInterest.org, 2 November 2013.
---------------------------------------------------------------------------
    On a strategic level: U.S. command, control and communications, 
particularly space-based capabilities, will be disrupted, if not for 
long periods, then, certainly long enough to create operational havoc. 
In addition, even mid-sized powers are building a large, diverse, and 
reliable range of conventional ballistic missiles for deep precision 
strikes designed to operate within terrestrial and space-based sensor 
networks. As a result, U.S. Forces must expect that future opponents to 
launch theater ballistic missiles and self-navigating long range cruise 
missiles to strike ports, airfields, refineries, desalinization plants 
and food storage facilities vital to U.S. Forces. For example, unless 
United States and allied air defenses can shoot down Russian Kaliber 
Cruise Missiles, these missiles can strike all European ports and 
airfields with the exception of those in the far southwestern corner of 
the Iberian Peninsula.
    On the operational and tactical levels: the skies over U.S. Army 
Forces will be crowded with loitering munitions, or unmanned combat 
aerial vehicles (UAVs or drones). These agile UCAVs are really cruise 
missiles designed to engage beyond line-of-sight ground targets. With 
proximity-fused, high-explosive warheads, these systems will remain 
airborne for hours, day or night. Equipped with high resolution 
electro-optical and infrared cameras, enemy operators will locate, 
surveil, and guide these drones to targets on the ground--primarily, 
U.S. ground forces. \9\
---------------------------------------------------------------------------
    \9\ At least 9 nation-states including Russia, China, Israel, 
Turkey, Iran and India possess these precision weapon systems. The U.S. 
Army fields the Switchblade, a miniature, remotely-piloted 5.5 pound 
vehicle with ten kilometer range and ten minutes endurance in the air. 
This is purely tactical weapon with limited utility compared with the 
systems discussed here.
---------------------------------------------------------------------------
    When these loitering missiles are integrated into the enemy's 
Strike Formations armed with precision guided rocket artillery that 
fires high explosive, incendiary, thermobaric, warheads including sub-
munitions with self-targeting anti-tank and anti-personnel munitions 
warfare as we know it changes. \10\ Rockets fired from just 5 of these 
modern rocket launchers can devastate an area the size of New York 
City's Central Park (843 acres or 3.2 square miles) in minutes. \11\
---------------------------------------------------------------------------
    \10\ Sydney Freedberg, ``Russian Drone Threat: Army Seeks Ukraine 
Lessons,'' Breaking Defense, 14 October 2015. http://
breakingdefense.com/2015/10/russian-drone-threat-army-seeks-ukraine-
lessons/
    \11\ The Russian Smerch-M, a system that is proliferating, can fire 
many types of rockets such as the 9M55K which carries 72 unguided fin-
stabilized high-explosive fragmentation sub-munitions, the 9M55K1 which 
carries five parachute-retarded MOTIV-3F top-attack anti-armor sub-
munitions, the 9M55K4 which carries 25 anti-tank mines, the 9M55F an 
unitary warhead with a charge of 95,5 kg of high explosive, the 9M55S a 
fuel air explosive munition, and the 9M55K5 with 646 shaped charge 
fragmentation sub-munitions that are dispensed over the target. The BM-
30 Smerch-M 9A52-2 can fire rockets with a maximum range of 90 km. 
http://www.armyrecognition.com/russia--russian--army--vehicles--
system--artillery--uk/9a52-2--smerch-m--bm-30--multiple--rocket--
launcher--system--technical--data--sheet--information--description--
u.html
---------------------------------------------------------------------------
    Meanwhile, at every level--tactical, operational and strategic--
integrated air defenses protect the enemy's Strike Formations from U.S. 
air and missile attack. It would be a serious mistake to underestimate 
the impact of integrated air defenses with phased array radars. Some of 
the newest air defense systems--like the Russian S-500--are so capable 
that many United States Defense Officials privately worry that even 
warplanes like the F-22, F-35 and the B-2 risk destruction if they 
attempt to penetrate them. \12\ There is, however, no debate about the 
impact of new increasingly lethal and accurate air defense technology 
on the tactical level: Any manned or unmanned, low-flying, subsonic 
platform, whether it is a conventional rotorcraft, a tilt-rotor, or a 
fixed wing prop/turboprop aircraft, will be highly susceptible to 
detection, engagement and destruction. \13\
---------------------------------------------------------------------------
    \12\ Dave Majumdar, ``Russia's Deadly S-500 Air-Defense System: 
Ready for War at 660,000 Feet,'' The National Interest, 3 May 2016. 
http://nationalinterest.org/blog/russias-deadly-s-500-air-defense-
system-ready-war-660000-16028. The dramatic improvements in the massive 
processing of signals to find patterns and filter out noise have 
dramatically improved the precision and capability of radar. The 
algorithms that enabled NASA to exploit microwaves for exploration of 
the moon also apply to IADS.
    \13\ As demonstrated by the failed RAH-66 Comanche, it is 
impossible to develop a rotor-driven manned craft with sufficiently 
reduced radar, IR, visible and acoustic signatures to avoid destruction 
in the mid-to-high intensity warfighting environment. http://
nation.time.com/2012/05/25/real-lessons-from-an-unreal-helicopter/
---------------------------------------------------------------------------
    While U.S. Forces struggle with the combined power of enemy IADS 
and Strike systems the enemy's armored forces maneuver to exploit the 
ensuing chaos on the ground to close in with accurate, devastating 
direct fire from automatic cannon, anti-tank guided missiles and high 
velocity guns. \14\ The close battle also takes place on the opponent's 
geographical doorstep conferring a serious home court advantage on the 
opponent's attacking ground forces.
---------------------------------------------------------------------------
    \14\ Tamir Eshel, ``New Russian Army: First Analysis,'' Defense 
Update, 9 May 2015. http://defense-update.com/20150509--t14-t15--
analysis.html
---------------------------------------------------------------------------
    The implications of this snapshot of future warfare are clear: 
``Holding ground'' in the face of ubiquitous overhead military 
surveillance and reconnaissance linked to an array of precision guided 
weapons is extremely dangerous. Survivability depends on mobility and 
protection from top, as well as, direct attack. Mobility depends on 
off-road maneuver. Off-road maneuver requires tracked (not wheeled) 
mobility. Protection necessitates armor (active and passive) in 
combination with accurate, devastating firepower and integration within 
the aerospace-maritime dominated ISR-Strike complex. For reasons of 
physics, tracked armored platforms provide superior all-around 
survivability and stability for modern weapon systems during on-the-
move engagements. \15\
---------------------------------------------------------------------------
    \15\ Paul Hornback, ``The Wheel versus Track Dilemma,'' Armor 
Magazine, March-April 1998, pages 33-34.
---------------------------------------------------------------------------
    The requirement that results from the proliferating ISR-Strike 
revolution is a warfighting environment that rewards dispersed, mobile 
warfare, a brand of warfare that elevates tactical dispersion to the 
operational level of war. To cope with the conditions that dispersed 
mobile warfare creates, maneuver forces must infiltrate a theater of 
war at points where the enemy's air defenses are weak or nonexistent. 
These are the points where manned and unmanned aircraft or missiles 
cannot easily attack them. This means that unless the U.S. Army moves 
rapidly away from the last two decades' focus on ``permissive non-
contested operations'' in counterinsurgency to higher-end operations in 
more contested, non-permissive environments future U.S. Army and Air 
forces will face certain defeat. \16\
---------------------------------------------------------------------------
    \16\ In his work as Deputy Sectary of Defense, Robert Work, 
concluded that the density and lethality of future anti-access/anti-
denial capabilities raised questions about the viability of Marine 
light forces in a contested environment. His observations are important 
because they apply to light-infantry centric forces in general. He 
observed: ``The Navy-Marine team will never contemplate littoral 
maneuver until an enemy's battle network, capable of firing dense 
salvos of guided weapons, is suppressed. Consequently, the initial 
phase of any joint theater-entry operation will require achieving air, 
sea, undersea, and overall battle-network superiority in the amphibious 
objective area . . . Thus far we have only argued that some capability 
to conduct theater-entry operations and littoral maneuver must be 
retained. But it is fair to ask how much amphibious capacity is 
needed.'' Robert Work and F. C. Hoffman, ``Hitting the Beach in the 
21st Century,'' U.S. Naval Institute Proceedings 136/11/1 (2010), page 
293.
---------------------------------------------------------------------------
section 2 (``all arms-all effects,'' sustainment and army force design)
    The technological trends in lethality, accuracy and range outlined 
in the previous section point to a very different Army from the U.S. 
Army we have today; an overly light-infantry-centric force equipped for 
low intensity conflict much like the Marine Corps. In the 21st century, 
the nation needs an Army that consists of mainly mobile, armored forces 
with accurate, devastating firepower designed to operate on land the 
way ships operate at sea; within the limits of their organic ISR, 
Strike and Sustainment capabilities. Like individual naval combatants, 
Army ground maneuver formations must be able to operate independently 
or rapidly assemble into larger forces.
    These desired attributes point to Army forces that are organized, 
trained and equipped for mobile, dispersed war within an integrated, 
joint operational framework; an army that consists of self-contained 
fighting, mission-focused force packages organized around the 
warfighting functions of modern warfare: maneuver, strike, ISR, and 
sustainment capabilities. They must be equipped with the Joint C4ISR 
and organic sustainment to operate inside a joint military command 
structure that tightly integrates ground maneuver forces with the ISR 
and Strike capabilities that reside in the aerospace and maritime 
forces. The resulting formations of 5-6,000 soldiers under the command 
of brigadier generals with robust staffs are designed to deploy and 
fight as unreinforced, stand-alone formations and plug directly into a 
Joint Task Force without intervening division headquarters. With this 
new, integrative organizational paradigm in place, the 21st century 
U.S. Army becomes an operationally flexible grouping of capability-
based formations, faster to deploy, easier to transport and maneuver.
    Recognizing the potential this organizational construct represents, 
Senator John McCain, SASC Chairman, and Members included a provision in 
the FY 17 National Defense Authorization Bill directing the Chairman of 
the Joint Chiefs to model, assess and report on a new prototype ground 
combat maneuver formation, the Reconnaissance Strike Group (RSG). The 
RSG is a 6,000 soldier Reconnaissance Strike Group (RSG); a special 
purpose organization designed to lead change by exploiting new, but 
proven technologies in a joint, integrated, operational context. In 
other words, the RSG is a force design that links strategy with concept 
and capabilities to ensure capability integration and shared 
technological development across Service lines (RD&A).
    The RSG is organized to capitalize on the application of precision 
``Strike'' informed by networked ISR. With the proposed use of the PUMA 
infantry fighting vehicle (IFV) as a universal platform for all of its 
weapon systems, radars and logistical support, the RSG is not a fragile 
force. It employs manned and unmanned aircraft, sensors, radars and air 
defense systems (NASAMS National Advanced Surface-to-Air Missile System 
(NASAMS)), forward with ground maneuver elements to provide the 
coverage needed to exploit the formation's accurate, devastating, 
direct firepower including 30mm autocannon, spike anti-tank missiles 
and either 120mm or 130mm smooth bore tank cannon. \17\ Along with 
strategic and tactical mobility, the RSG has the precise striking power 
of loitering munitions, rocket artillery, and advanced 120mm mortar 
systems to conduct its own fire and close air support, as well as, 
strike operations against enemy concentrations. \18\
---------------------------------------------------------------------------
    \17\ National Advanced Surface-to-Air Missile System (NASAMS) 
http://www.raytheon.com/capabilities/products/nasams/
    \18\ AMOS. ``Advanced Mortar System,'' (BAE Systems Hagglunds AB). 
A double barreled breech-auto-loading 120 mm mortar turret mounted. 
System operates autonomously with direct and indirect fire capability 
together with Multiple Rounds out to 10 km. One RSG contains 60 `120mm 
Mortar' variants (System Fielded). MLRS (Lockheed Martin Missiles and 
Fire Control). The weapon can fire guided and unguided projectiles from 
42 to 300 km. (System fielded). One RSG contains 12 MLRS launchers/
systems variants. TARES (Tactical Advanced Recce Strike) is a UCAV with 
a 200 km range and endurance time of four hours. It autonomously 
searches for, identifies and engages targets. Up to 24 TARES can be 
flown simultaneously. System is tested ready for fielding. One RSG 
contains 24 TARES launcher variants. http://www.army-technology.com/
projects/taifun/
---------------------------------------------------------------------------
    The RSG is organized and equipped to fight for information and to 
rapidly exploit the information its subunits collect. It's designed for 
integration with, but not dependence on, air strikes for survival and 
effectiveness. The RSG is a mobile armored force that reflects the 
understanding that regardless of how well new technologies are 
networked, they will never provide perfect situational awareness or 
perfect information; that information is often of fleeting value. The 
RSG's robust, organic C4ISR integrates the RSG's ground combat 
capabilities (including the capability to dismount 840 soldiers) within 
the framework of ``All Arms/All Effects'' Cross Domain warfare.
    These points notwithstanding, the RSG is simply the vanguard for 
the Army ground force that must emerge to defeat 21st century threats. 
Thanks to the marriage of space-based and terrestrial ISR capabilities 
with the timely dissemination of analyzed intelligence through 
networks, the near-simultaneous application of Strike and Maneuver 
forces can be decisive in 21st century warfare. This recognition 
suggests that massed, accurate firepower or, STRIKE seeks to facilitate 
operational maneuver over distance, dislocate enemy C2, crush large 
concentrations of enemy forces, isolate the battlespace through 
interdiction and destroy enemy facilities with operational 
significance.
    Army Strike Groups are the inevitable result of the ISR-Strike 
revolution. Consisting of precision rocket artillery, cruise missiles 
and, potentially, intermediate range ballistic missiles, Army Strike 
Groups are ideal for Joint, integrated Strike Operations with aerospace 
and naval forces. These formations together with RSG-like Battlegroups 
can and must also play a key role in the methodical destruction of the 
enemy's integrated air defenses from the tactical to the strategic 
levels, thus, liberating American aerospace power to conduct 
unconstrained strike operations throughout the strategic depth of the 
opponent's area of operations.
    The realities of future force projection dictate that logistical 
support must be embedded at the tactical level as shown in the RSG, as 
well as, present on the operational level to respond to the needs of 
the JTF. Today's Army centralizes too much logistical support at the 
division and corps levels robbing subordinate BCTS of the capacity for 
independent operations. Today, the active force also depends too 
heavily on contracted logistical support. Army C4ISR and Combat Support 
Groups must be designed within a broader, Joint framework to ensure 
mutual reinforcing dependence, not unneeded redundancy. (See 
illustration) As my distinguished colleague, Lieutenant General Dave 
Deptula has stated in previous testimony, ``A dollar spent on 
duplicative capability comes at the expense of essential capacity or 
capability elsewhere.'' \19\
---------------------------------------------------------------------------
    \19\ Quoted by Walter Pincus, ``Senate Armed Services Committee 
tackles Inter-service rivalries--finally,'' Washington Post, 9 November 
2015.
---------------------------------------------------------------------------
    For decades, America has underinvested in strategic lift--a 
calculated choice to accept risk that shortages in lift could be offset 
by either taking more time to get forces to the theater or by 
prepositioning equipment in regions of foreseeable conflict. Smart 
planning and better acquisition strategies that result in formations 
like the PUMA-based RSG that are designed with intercontinental 
transportation in mind can help enormously. Vehicles sized to 
facilitate rapid transportation to forward locations can avoid the need 
to devise newer airframes or new ships capable of lifting and 
accommodating heavier vehicles.
    Still, it is not enough to simply expect the private sector to step 
in and transport the bulk of the military to war on a moment's notice. 
Dedicated airlift and short-notice private sector support must be 
readily available, because long lead times to ramp up for war are 
becoming a luxury in the age of missiles with transcontinental ranges. 
The capability to lift hazardous cargos such as ammunition and 
explosives, as well as heavy outsized cargo that cannot easily be 
lifted using commercial equipment along with investment in 
transportation support systems to off-load military cargo in unimproved 
locations is vital.
    In sum, to terminate future conflicts on terms that favor the 
United States and avoid long, destructive wars of attrition, the U.S. 
armed forces must combine the concentration of massive firepower across 
service lines with the near-simultaneous attack of ground maneuver 
forces in time and space to achieve decisive effects against opposing 
forces. Integrating ground maneuver forces into the larger ISR-Strike 
complex that already exists in U.S. aerospace and naval forces is 
critical to this outcome. Organizing Army forces into Lego-like 
mission-capable force packages on the RSG model and investing in the 
right mix of air and sea lift are indispensable to future force 
projection.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
   section 3 (integrated, joint command and control in expeditionary 
                                warfare)
    As noted in the Section 2, the Army's organizational constructs of 
the past--corps, divisions and brigades--with their roots in WW II are 
the wrong constructs for 21st Century Warfare. This observation applies 
with equal force to command overhead.

        In the 1944-45 advance from Normandy to the Rhine, General 
        Montgomery's headquarters controlled only two armies, which in 
        turn had only two and three corps respectively, and the corps 
        operated only two to three divisions--sometimes, even, only 
        one. The ratio of headquarters was no more economic in the U.S. 
        Army until a late stage. On top of both was Eisenhower's H.Q.--
        reputedly comprising some 30,000 officers and men. The 
        abundance of headquarters was one reason why the advance to 
        victory was so protracted, despite mobile instruments and 
        exhausted opponents. \20\
---------------------------------------------------------------------------
    \20\ B. H. Liddell Hart, Defence of the West, (New York, NY: 
William Morrow & CO., 1950), page 244. Forrest Pogue puts the number of 
officers and soldiers assigned to Eisenhower's HQ at 16,000. The 
difference lies in which supporting elements are included in the count. 
Forrest Pogue, The Supreme Command, (Washington, DC: Center of Military 
History, 1954), pages. 533-535.

    A discussion of the massive C2 overhead inside the Services and the 
Combatant Commands is beyond the scope of this testimony, but a 
flattening of the echelons of C2 is long overdue. In future conflicts 
and crises, there will be no time for a ``pickup game.'' By the time 
the United States gets its operational construct and ``C2'' act in 
order, China, Russia, Iran (or any other future great power or 
coalition of powers) will defeat United States forces.
    Adding maneuver and sustainment to the ISR-Strike framework is 
vital step joint interoperability cannot be created on the fly. Without 
unity of command, there is no unity of effort. Effective integration is 
the key to unity of command. Unity of effort, speed of decision, and 
action demand integrated command structures midway between the 
strategic and tactical levels that create and maintain a coherent 
picture of operations. The challenge is to integrate the diverse 
military capabilities from the aerospace and maritime forces with the 
Army's ground maneuver forces as seamlessly as possible when Army 
forces are committed as part of a Joint Task Force.
    Because command and control of geographically dispersed armed 
forces requires ``brain to brain'' as well as ``box to box'' 
connectivity, C2 structures on the operational level must involve 
trained professionals from all of the services. Shared battle space 
awareness is both technical and intellectual. Within the operational 
framework of ISR-Strike-Maneuver-Sustainment, the planning and 
execution of operations become routinely integrated through multi-
service command and control--common mission purposes. The outcome is a 
regionally focused standing Joint Force Headquarters capable of 
commanding whatever mission-capable force packages are assigned to it.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    To briefly sum up, the ISR-Strike-Maneuver-Sustainment Framework is 
not just about ``things.'' It's about integrating existing and future 
capabilities within an agile operational framework guided by human 
understanding. The goal is to create a coherent view of warfare, (not 
just operations) across service lines. The JFC concept moves the armed 
forces beyond the last minute lash up of single-service headquarters, 
or the ad hoc coordination of individual federal agencies and service-
based elements of integration.
                      summary and recommendations
    Today and in the future, the United States' military response to 
future regional wars depends on our general purpose, non-nuclear 
capabilities. The United States needs powerful forces-in-being 
(professional ready, deployable, air, land and sea) that are prepared 
to win the first fight, because we may not get the chance to win a 
second. The last fourteen years severely eroded the United States' 
military-technological edge and operational flexibility--particularly 
those of the U.S. Army. The focus on irregular warfare--suppressing 
weak, insurgent opponents without armies, air forces or air defenses 
let alone naval power--must end. At a strength of 500,000 or less, the 
active U.S. Army cannot preserve its vital warfighting forces and still 
maintain large light infantry-centric and paramilitary forces for 
counterinsurgency and nation building in the Eastern hemisphere.
    Members of the Air-Land Committee must apply Peter Drucker's 
private sector advice to National Defense: ``If you want something new, 
you have to stop doing something old.'' \21\ To survive and prevail in 
twenty-first-century close combat the vast majority of soldiers should 
be mounted in tracked armored platforms equipped with accurate, 
devastating firepower and tightly integrated with ISR and Strike 
capabilities in all of the services. \22\
---------------------------------------------------------------------------
    \21\ Peter Drucker, Management Challenges for the 21st Century, 
(New York, NY: Harper Business, 1998), page 32.
    \22\ For a good assessment of the lethality that confronts U.S. and 
allied ground forces, see Ron Tira, ``Breaking the Amoeba's Bones,'' 
Strategic Assessment, Jaffee Center for Security Studies, Tel Aviv 
University, autumn 2006. http://www.tau.ac.il/jcss/sa/v9n3p3Tira.html
---------------------------------------------------------------------------
    Finally, a flattening of the American military command structure is 
equally critical. The multiplicity of higher headquarters in the chain 
of command not only slows decision making and increases friction, it 
drains the fighting formations of too many capable soldiers. These 
points suggest two critical recommendations:

    1.  Urge the Chairman of the Joint Chiefs and the incoming 
Secretary of the Army to accelerate the RSG's evaluation and provide 
funding for rapid prototyping of PUMA platforms to produce an 
experimental RSG maneuver battalion set as soon as possible;
    2.  Direct the CJCS to stand up an experimental 3 star Joint Force 
Headquarters on the model presented in this testimony with the goal of 
developing a template for Joint Force Commands inside the regional 
unified commands. The Joint Base Lewis-McChord should be considered for 
the testing and evaluation of the proposed JFC C2 structure.

    Senator Cotton. Thank you, Colonel Macgregor.
    Mr. Scharre?

 STATEMENT OF PAUL SCHARRE, SENIOR FELLOW AND DIRECTOR, FUTURE 
   OF WARFARE INITIATIVE, CENTER FOR A NEW AMERICAN SECURITY

    Mr. Scharre. Thank you, Senator Cotton, Ranking Member 
King, and distinguished Senators. Thank you for inviting me to 
testify today.
    The United States has fallen behind in adapting to 
challenges from other nations. Russia and China have developed 
anti-access/area denial capabilities that threaten traditional 
forms of United States power projection. If the United States 
is to remain relevant as a global power, we must adapt to these 
challenges.
    Cuts under the Budget Control Act have harmed military 
readiness and delayed urgently needed modernization. In 
addition to a sustained increase in defense spending above BCA 
levels, the Department of Defense needs a predictable and 
stable budget in order to plan future activities.
    With additional resources, DOD should prioritize restoring 
readiness by funding maintenance and training and modernizing 
the force to adapt to emerging challenges. U.S. Forces cannot 
be considered ready if they are prepared for the wrong threats. 
U.S. Forces must adapt their capabilities and concepts of 
operation to meet the threats posed by adversaries. Greater 
capacity alone cannot meet these challenges.
    DOD should pursue a disciplined modernization strategy that 
focuses investments on high pay-off capabilities, that can 
deliver the most value in countering A2/AD challenges. This 
approach should leverage existing programs where possible in 
order to maximize the efficient use of scarce resources. DOD 
should also capitalize on emerging technologies, such as 
robotics and automation, to increase operational effectiveness 
and reduce costs.
    The Air Force must adapt to adversary investments in air 
defenses, ballistic and cruise missiles, and mobile assets. To 
do this, U.S. aircraft must be able to project power over long 
distances, penetrate and survive in contested areas, deliver 
high volume fires, and persist in order to track mobile and 
relocatable targets. These aircraft also need robust, secure 
communications in order to operate as a distributed network.
    Key investments include procuring the B-21 bomber at the 
maximum rate once it enters production so it is fielded in 
sufficient quantities for future conflicts; leveraging work on 
the B-21 to more affordably upgrade existing B-2 bombers, 
building an optionally manned version so they can operate 
beyond human endurance limits to conduct persistent 
surveillance and strike missions against mobile targets inside 
enemy territory; investing in an aerial layer network to build 
robust, secure communications in the event of satellite 
disruption; procure additional quantities of next generation 
munitions; developing new munitions including a longer range 
air-to-air missile and air-launched swarming drones; continuing 
investments in electronic warfare and direct energy weapons; 
and upgrading existing non-stealthy aircraft, such as F-15's, 
F-16's, and MQ-9 Reapers to augment the fifth generation 
aircraft with additional munitions.
    The Air Force should also improve the cost effectiveness of 
day-to-day counterterrorism operations by investing in a fleet 
of low-cost light attack aircraft.
    The Air Force should also upgrade its MQ-9 Reaper fleet 
with extended range, multi-aircraft control, and automated 
information processing to improve cost effectiveness.
    The Army must similarly adapt investing in new capabilities 
and ways of warfighting to respond to these challenges. The 
Army must be prepared to face a diverse array of threats, but 
Russia should be the pacing threat for Army modernization.
    Key Army initiatives include increasing the number of 
Active Duty Army brigade combat teams; upgrading ground 
vehicles with active protection systems; investing in long-
range precision fires, electronic warfare, and protected 
communications; upgrading Paladins with hyper velocity 
projectiles for ballistic and cruise missile defense; 
experimenting with new concepts for air and ground robotic 
teammates; and investing in human enhancement technologies to 
improve soldier performance.
    The Army should also improve its ability to conduct day-to-
day advising activities without disrupting the readiness of 
brigade combat teams by investing in new advise and assist 
brigades to resource this mission.
    These investments would improve the military's ability to 
project power into contested areas. But Congress must also help 
DOD address the underlying conditions that caused these threats 
to remain unaddressed. It was not because of a lack of funding 
or too much focus on counterinsurgency. From 2001 to 2008, DOD 
received a massive influx in defense spending. Not all of it 
went to the wars in Iraq and Afghanistan. Yet, we remain ill-
postured today for these emerging threats because of 
bureaucratic inertia, acquisition mismanagement, and a lack of 
strategic agility. Congress must help DOD address these 
institutional challenges as well.
    Thank you for having me.
    [The prepared statement of Mr. Scharre follows:]

                   Prepared Statement by Paul Scharre
               adapting the force to emerging challenges
    Chairman Cotton, Ranking Member King, and distinguished Senators, 
thank you for inviting me to testify today.
    We are at a time of both risk and opportunity for the U.S. armed 
forces. Budget cuts instituted under the 2011 Budget Control Act have 
harmed military readiness and delayed urgently-needed modernization. 
The United States has fallen behind in adapting to challenges from 
other nations. Russia and China have developed a suite of capabilities, 
broadly labeled ``anti-access / area denial'' (A2/AD), that threaten 
traditional forms of United States power projection. In order to remain 
relevant as a global power, the United States must adapt to these 
challenges. At the same time, the United States must also find more 
cost-effective means of conducting day-to-day operations, such as 
countering terrorism and providing a stabilizing presence in key 
regions around the globe.
    To accomplish these and other high-priority missions, such as 
defending the Homeland from ballistic missile attacks from rogue 
nations, the U.S. military must continue to evolve and adapt. Congress, 
working with the Trump Administration, has an opportunity to reverse 
the harmful budgetary cuts under the Budget Control Act (BCA). In 
addition to a sustained increase in defense spending above BCA levels, 
the Department of Defense (DOD) needs a predictable and stable budget 
in order to plan future activities.
    With additional resources, DOD should prioritize (1) restoring 
readiness by funding maintenance and training and (2) modernizing the 
force to adapt to emerging challenges. U.S. forces cannot be considered 
``ready'' if they are prepared for the wrong threats. United States 
forces must be trained, equipped, and postured to meet the challenges 
posed by China, Russia, Iran, North Korea, and violent extremism. 
Greater capacity alone cannot meet these challenges. The force must 
evolve its capabilities and operational concepts.
    DOD should pursue a disciplined modernization strategy that focuses 
investments on high-payoff capabilities that can deliver the most value 
in countering A2/AD challenges. This approach should leverage existing 
programs wherever possible in order to maximize the efficient use of 
scarce resources. DOD should also capitalize on emerging technologies 
such as robotics and automation to increase operational effectiveness 
and decrease costs. \1\ Finally, DOD should improve its ability to 
conduct day-to-day activities, such as countering terrorism, in a cost-
effective manner by investing in a ``high-low mix'' of forces: a small 
number of highly capable assets for countering sophisticated 
adversaries and larger numbers of lower cost assets for routine 
operations.
---------------------------------------------------------------------------
    \1\ For more on the cost-saving advantages of robotic systems, see 
Paul Scharre and Daniel Burg, ``The $100 Billion Question: The Cost 
Case for Naval Uninhabited Combat Aircraft,'' Center for a New American 
Security, Washington, DC, August 2015, https://www.cnas.org/
publications/reports/the-100-billion-question.
---------------------------------------------------------------------------
    The remainder of this testimony will outline key initiatives DOD 
should pursue to adapt the Air Force and Army to these challenges.
     air force--strategic environment and key investment priorities
    Adversary investments in advanced integrated air defense systems, 
ballistic and cruise missiles to target U.S. bases, and mobile and 
relocatable assets require the U.S. Air Force to adapt. U.S. aircraft 
must be able to project power over long distances, penetrate and 
survive in contested areas, deliver high volume fires, and persist in 
order to track mobile and relocatable targets. These forces need 
robust, secure communications links to operate as a distributed 
network. \2\
---------------------------------------------------------------------------
    \2\ See also David Ochmanek, ``Restoring the Power Projection 
Capabilities of the U.S. Armed Forces,'' Testimony before the Senate 
Armed Services Committee, February 16, 2017, http://www.armed-
services.senate.gov/imo/media/doc/Ochmanek--02-16-17.pdf.
---------------------------------------------------------------------------
    DOD has taken steps towards developing a global surveillance and 
strike capability that meets these ends, but more could be done to 
ensure DOD attention and investments are focused on the most high-
priority areas. Key focus areas for the Air Force include:

    <bullet>  Long-range penetrating strike: The B-21 bomber, currently 
in development, will provide DOD with the ability to deliver high-
volume fires in contested environments over long distances. Even 
medium-scale conflicts, like the opening phases of the 2003 Iraq War, 
require tens of thousands of weapons on targets. \3\ Congress should 
work with the Administration to ensure that once the bomber enters 
production, procurement proceeds at the maximum rate in order to field 
this capability in sufficiently quantities for future conflicts. In the 
interim, the Air Force should leverage work underway on the B-21 to 
upgrade existing B-2 bombers, with a focus on increasing operational 
availability, survivability, lethality, and connectivity.
---------------------------------------------------------------------------
    \3\ Micah Zenko, ``Comparing the Islamic State Air War With 
History,'' July 6, 2015.

    <bullet>  Persistent surveillance and strike: In addition to 
delivering high volume fires, U.S. aircraft must have the ability to 
persist within contested areas in order to find, fix, and finish enemy 
mobile and relocatable targets. Stealthy uninhabited (unmanned) combat 
aircraft are the only way to do this from long range. Refuelable 
uninhabited aircraft could achieve ultra-long endurance, far exceeding 
the limits of human pilots. \4\ While the Air Force has invested in a 
large fleet of non-stealthy uninhabited aircraft for counter-terrorism 
missions and a smaller number of stealthy uninhabited aircraft for 
reconnaissance, \5\ it has yet to acquire a stealthy uninhabited combat 
air system (UCAS) for operations in contested environments. This is the 
most significant capability gap the Air Force faces today. Fortunately, 
the Air Force has a ready-made option to affordably develop this 
capability. The Air Force has stated that it is preserving the option 
of developing an ``optionally manned'' version of the B-21 in the 
future. \6\ Congress should ensure the Air Force exercises that option 
and develops an optionally manned version that could be used for 
uninhabited, long endurance persistent surveillance and strike 
missions.
---------------------------------------------------------------------------
    \4\ Paul Scharre, ``The Value of Endurance,'' Center for a New 
American Security, November 12, 2015, https://www.cnas.org/
publications/blog/infographic-the-value-of-endurance.
    \5\ U.S. Air Force, ``RQ-170 Sentinel,'' December 10, 2009, http://
www.af.mil/AboutUs/FactSheets/Display/tabid/224/Article/104547/rq-170-
sentinel.aspx.
    \6\ Dave Majumdar, ``USAF leader confirms manned decision for new 
bomber,'' FlightGlobal.com, April 23, 2013, https://
www.flightglobal.com/news/articles/usaf-leader-confirms-manned-
decision-for-new-bomber-385037/.

    <bullet>  Robust, secure networks: U.S. forces will be most 
effective when they are connected via secure, robust networks for 
communications and position, navigation, and timing (PNT). DOD should 
capitalize on the rapidly maturing commercial space market to lower 
satellite launch costs. DOD should also invest in an aerial layer 
network to increase redundancy, provide a resilient backup against 
satellite disruption, and diminish the advantages to adversaries of 
attacking U.S. satellites. This aerial layer could affordably be 
developed by placing communications and PNT relay nodes on stealthy 
UCAS so that they provide their own self-healing network in contested 
areas and on existing non-stealthy uninhabited aircraft for 
---------------------------------------------------------------------------
communications relay outside of contested areas.

    <bullet>  Next-generation fires and effects: The Air Force must 
continue to upgrade and increase its quantities of munitions to ensure 
they are sufficiently lethal, survivable, and acquired in sufficiently 
high capacity to operate against future threats. This includes 
procuring larger quantities of munitions such as the Joint Air-to-
Surface Standoff Missile-Extended Range (JASSM-ER) and Long-Range Anti-
Ship Missile (LRASM) and developing a new longer range air-to-air 
missile. The Air Force has led the way on developing small air-launched 
swarming air vehicles, which could be used for jamming, decoys, 
reconnaissance, battle damage assessment, and strike, and the Air Force 
should move swiftly to operationalize this technology.
---------------------------------------------------------------------------
    \7\ For more on swarming concepts, see Paul Scharre, ``Robotics on 
the Battlefield Part II: The Coming Swarm,'' Center for a New American 
Security, October, 2014, https://www.cnas.org/publications/reports/
robotics-on-thebattlefield-part-ii-the-coming-swarm.

    <bullet>  Directed energy weapons: High-energy lasers have the 
potential to provide a breakthrough capability that radically ``changes 
the game'' in aerial warfare because of their deep magazines. Provided 
they have sufficient power and cooling, high-energy lasers could 
continue engaging targets indefinitely, intercepting incoming missiles 
and providing offensive effects. \8\ Coupled with long-endurance 
uninhabited aircraft, high-energy lasers could potentially provide 
persistent, cost-effective defenses against cruise and ballistic 
missile attacks. The Air Force should continue to mature this important 
technology.
---------------------------------------------------------------------------
    \8\ Jason Ellis, ``Directed Energy Weapons: Promise and 
Prospects,'' Center for a New American Security, April 2015, https://
www.cnas.org/publications/reports/directed-energy-weapons-promise-and-
prospects.

    <bullet>  Lower-cost delivery systems: The Air Force will need a 
way to affordably deliver large quantities of munitions. In addition to 
procuring long-range stealthy penetrating platforms, the Air Force 
should maximize the use of existing aircraft (e.g., B-1, B-52, F-15, F-
16, and MQ-9) as delivery vehicles for standoff weapons, decoys, and 
swarming air vehicles. Operating in concert with stealthy aircraft, 
this high-low mix of platforms could help augment the magazine depth of 
U.S. forces. The Air Force should upgrade these platforms with the 
necessary communications, survivability improvements, and other 
---------------------------------------------------------------------------
capabilities to optimize their value against sophisticated adversaries.

    Even as the Air Force pursues these capabilities to respond to 
adversary A2/AD challenges, it must also look for more cost-effective 
ways to counter less capable adversaries, such as the Islamic State. 
The Air Force should invest in a fleet of low-cost, light attack 
aircraft to conduct counter-terrorism, close air support, and other 
missions in permissive air environments. The Air Force should also 
optimize its MQ-9 Reaper fleet by investing in extended range, multi-
aircraft control, and automated information processing, exploitation, 
and dissemination in order to improve operational cost-effectiveness.
       army--strategic environment and key investment priorities
    The Army must similarly adapt, investing in new capabilities and 
concepts of operation to respond to emerging challenges. The Army must 
be prepared to face a diverse array of potential threats, from 
sophisticated states such as Russia to non-state actors such as the 
Islamic State and potentially ``hybrid'' actors in between. Russia 
should be the ``pacing threat'' for Army modernization--the threat 
archetype that represents the most sophisticated potential adversary in 
terms of capabilities, technology, and organization. This does not mean 
that all other threats are ``lesser included'' cases. Indeed, the U.S. 
experience in Iraq and Afghanistan demonstrated that ground forces 
optimized to fight a conventional war against a state actor may be 
woefully unprepared for counterinsurgency or irregular warfare. The 
Army must be prepared to fight across the full spectrum of potential 
adversaries, which may require special-purpose capabilities, doctrine, 
training, and organizations to counter certain threats. Both states and 
non-state actors alike are innovating in ways that challenge the U.S. 
Army and could potentially dramatically change ground warfare in the 
coming years.
    The Army must shift from a force primarily trained for 
counterinsurgency warfare towards one prepared to deter and defeat 
aggression against a major state competitor. Key initiatives include:

    <bullet>  Increasing the number of active duty armored brigade 
combat teams (BCTs);

    <bullet>  Upgrading ground vehicles with active protection systems 
(APS) to intercept precision-guided anti-armor weapons;

    <bullet>  Investing in long-range precision fires, electronic 
warfare, and protected communications;

    <bullet>  Upgrading Paladin 155mm howitzers with hyper velocity 
projectiles (HVPs) and targeting capabilities for ballistic and cruise 
missile defense; \9\ and
---------------------------------------------------------------------------
    \9\ Sam LaGrone, ``Pentagon: New Rounds for Old Guns Could Change 
Missile Defense for Navy, Army,'' USNI News, July 18, 2016.

    <bullet>  Experimenting with new operational concepts leveraging 
---------------------------------------------------------------------------
air and ground robotic teammates.

    At the same time that the Army is upgrading its forces to keep pace 
with adversaries, it must prepare for potentially dramatic changes in 
the character of ground combat.

    <bullet>  Threat from enemy air attack: For decades, the Army has 
been able to rely upon U.S. air superiority to eliminate the threat 
from enemy aircraft such that U.S. ground forces have not faced threats 
from the air. That era is ending. In a Russia conflict, U.S. ground 
forces would have to fight within range of Russian air defenses and 
aircraft before those threats are eliminated. That means that U.S. 
ground forces would be operating within the A2/AD ``bubble.'' The Army 
must adapt its capabilities and concepts of operation to cope with a 
contested airspace. The Army must increase its investment in air 
defenses and reduce the signature of U.S. ground forces through 
camouflage, concealment, and deception. U.S. ground forces also face 
the threats of air attack from non-state actors equipped with low-cost 
commercially available drones. While these low-cost drones are not a 
threat to U.S. fighter aircraft, they are a threat to ground forces and 
U.S. fighters are improperly matched to counter this threat. The Army 
will need to invest in countermeasures to detect, target, and destroy 
swarms of small commercial drones.

    <bullet>  Air-ground robotic systems: Other nations are investing 
in military-specific ground and air robotic vehicles and using them in 
novel ways. Russia has been developing a fleet of ground robotic 
vehicles, including some that are armed, and has employed uninhabited 
aircraft as forward observers for artillery in the Ukraine. Robotic 
systems can be used to increase standoff from threats, field larger 
numbers of forces on the battlefield, persist beyond the limits of 
human endurance, and enable new concepts of operation such as 
attritable swarming formations. The result could be new doctrine and 
ways of fighting on par with the invention of the blitzkrieg. While the 
Army has been at the forefront of integrating uninhabited aircraft into 
its force, partnering uninhabited Gray Eagle aircraft with inhabited 
Apache helicopters, the Army significantly lags other nations in ground 
robotics. The Army will be woefully unprepared for future conflicts if 
it misses out on the opportunity provided by robotic systems. The Army 
should increase its investment in ground robotics, including armed 
systems, and experiment with robotic teammates in mixed manned-unmanned 
formations.

    <bullet>  Precision-guided infantry weapons: One of the most 
innovative transformations in warfare over the past several decades was 
the invention of precision-guided weapons. Warfare at the level of 
infantry combat has remained, however, largely a realm of unguided 
weapons. With the exception of night vision, infantry tactics have 
changed little since World War II. The continued miniaturization of 
electronics means that precision-guided weapons are filtering down to 
the level of the individual soldier, however. A range of new weapons, 
from smart munitions to intelligent rifles to small drones, are placing 
precision-guided weapons into the hands of the individual soldier. \10\ 
A future in which individual soldiers can target each other with 
precision at long ranges would change infantry combat in ways not seen 
since the invention of the machine gun. While some of these systems 
have been developed by the Army, others come from the commercial sector 
and will be widely available. The Army should experiment with new ways 
of fighting with and defending against these technologies in order to 
prepare for changes to come.
---------------------------------------------------------------------------
    \10\ For more on these changes to ground warfare, see Paul Scharre, 
``Uncertain Ground: Emerging Challenges in Land Warfare,'' Center for a 
New American Security, December 2015, https://www.cnas.org/
publications/reports/uncertain-ground-emerging-challenges-in-land-
warfare.

    Even as the Army prepares for these potential changes in warfare, 
the Army must also conduct a wide range of day-to-day peacetime 
activities, including advising and assisting partner forces. The Army's 
current model for resourcing these missions is to pull individual 
soldiers from Brigade Combat Team (BCTs), an approach that is 
inefficient and undermines readiness. In order to help restore 
readiness, the Army should invest in Advise and Assist Brigades (AABs) 
that would provide a pool of qualified advisors to resource these 
missions without disrupting BCT readiness.
    Finally, the Army should take advantage of emerging technologies 
that have the potential to directly improve the capabilities of 
individual soldiers. These include:

    <bullet>  Increasing soldier protection against blast-induced brain 
injury through improved helmet design;

    <bullet>  Investing in human enhancement technologies, such as 
transcranial direct current stimulation (tDCS) \11\ and pharmaceutical 
enhancements to improve alertness and cognitive performance, such as 
modafinil; \12\ and
---------------------------------------------------------------------------
    \11\ Jeremy Nelson, R. Andy McKinley, Edward Golob, Joel Warm, and 
Raja Parasuraman, ``Enhancing vigilance in operators with prefrontal 
cortex transcranial direct stimulation (tDCS)'' NeuroImage 85 no. 3 
(January 2014), 909917. Justin Nelson, Richard McKinley, Chandler 
Phillips, Lindsey McIntire, Chuck Goodyear, Aerial Kreiner, and Lanie 
Monforton, ``The Effects of Transcranial Direct Current Stimulation 
(tDCS) on Multitasking Throughput Capacity, Frontiers in Human 
Neuroscience, (2016).
    \12\ Arthur Estrada et al., ``A comparison of the efficacy of 
modafinil and dextroamphetamine as alertness promoting agents in 
aviators performing extended operations,'' United States Army 
Aeromedical Research Laboratory, Report No. 2011-05, December 2010, 4. 
Amanda Kelley et al., ``Cognition-enhancing drugs and their 
appropriateness for aviation and ground troops: a meta-analysis,'' 
United States Army Aeromedical Research Laboratory, Report No. 2011-06, 
December 2010, 4. Amanda Kelley, Catherine Webb, Jeremy Athy, Sanita 
Ley, and Steven Gaydos, ``Cognition enhancement by modafinil: a meta-
analysis.'' Aviation, Space, and Environmental Medicine, 83 no. 7 (July 
2012), 685-690.

    <bullet>  Maturing exoskeleton and exosuit technologies to improve 
soldier mobility and protection.
                      increasing strategic agility
    These investments can help evolve and adapt the force to confront a 
range of emerging challenges. Ultimately, however, DOD must become more 
agile so that it is better suited as an institution to rapidly adapt to 
adversary innovation. So long as DOD procures major weapon systems in 
timelines measured in decades, it will continually be shooting behind a 
moving target. Institutional innovations like the Army's Rapid 
Capabilities Office will be essential to improving DOD's strategic 
agility. Congressional support for this and other efforts is critical 
to sustaining America's military edge in the years to come.

    Senator Cotton. Thank you, Mr. Scharre. Thank you, 
gentlemen, for your testimony.
    Colonel Macgregor, you spoke of the differences in the 
kinds of wars we fought or saw fought around the world at the 
turn of the last century, the Philippine war, the Russia-Japan 
war, World War I, and how sometimes the wrong lessons were 
taken or we imagined a future war would look like the recent 
past war.
    What is your vision for war and combat between great powers 
in the 21st century? What can we expect to be different? What 
should we expect to be the same?
    Mr. Macgregor. Obviously, people are looking carefully 
today and the Russians and the Chinese, but as Senator King 
pointed out, many of the capabilities they are developing are 
going to find a home in places like Iran, potentially Pakistan, 
India, and many other countries over time.
    Russian military development right now is based on the work 
of a man named Gareyev. He is a former Russian general. His 
first name is Makhmut. He is an interesting man. He is still 
alive. He is actually a Tartar who was russified, and he was 
one of General Ogarkov's brain trust members back in the 1970s, 
1980s, and 1990s. He foresaw a war that resembles in many ways 
what I wrote about in the statement. He anticipated the arrival 
of precision, not just in the United States, but eventually in 
Russian hands as elsewhere, the impact of microcircuitry, 
computational power, and that this precision paradigm would 
essentially obviate the need for nuclear weapons but would 
suddenly make conventional munitions and capabilities 
infinitely more capable.
    So what we see now emerging in Russia and what I think we 
are going to see emerging around the world increasingly are 
categories of weapons like the rocket artillery that carries a 
variety of different warheads, that can launch for 90 or 100 
kilometers with great precision on very short notice, loitering 
munitions. These are essentially unmanned aerial vehicles, for 
all intents and purposes another form of cruise missile. These 
loitering munitions will fly for hours. They will fly day or 
night using various kinds of acquisition. They will look for 
and find targets on the ground, and then fly directly into 
those targets. As soon as a target is identified and they 
attack it, that will be followed up by rocket artillery.
    At the same time, we are dealing with these integrated air 
defenses that, once again, thanks to the computational power 
that once was our monopoly and is now also in Russian hands, 
presents us with a very serious threat to any form of air 
power, but specifically air power that flies low and slow, to 
the point where many of the aircraft in the Army and the Marine 
Corps, if they were used in a place like eastern Ukraine, would 
be shot instantly out of the sky.
    So what we have got now I think is a different kind of 
battlefield from anything we have seen before. We have to be 
prepared to disperse on it because if we present a 
concentration, we become a lucrative target. We cannot simply 
hold ground, dig in, and fight back because if we are static 
for any length of time, the persistence surveillance will find 
us and attack us. If we are not armored, flesh and bone is not 
going to survive very long because virtually everything exists 
to kill the individual human being who is not protected. So we 
need protected mobility, but that mobility, to be effective, 
needs to be armored, needs to be tracked for reasons of physics 
to provide adequate protection, to provide stable platforms for 
all of the various weapon systems that now need to be 
incorporated into future formations much beyond this thing we 
call the brigade combat team.
    So that future battlefield is going to be confusing. It is 
going to be very lethal. It is going to demand greater 
dispersion. We are going to see that battlefield empty quite a 
bit even more so than we have seen over the last 50 years. We 
are going to have to find new ways to sustain ourselves. We are 
going to have to have more support integrated at lower levels 
that allows for greater dispersion, new forms of command and 
control that integrate capabilities across service lines very 
quickly, without hesitation because our inability to make 
decisions quickly in this setting with all of the capabilities 
at our disposal could be fatal. So that is in broad terms the 
picture that I see, sir.
    Senator Cotton. General Deptula, would you care to offer 
any comments on Colonel Macgregor's vision for all arms 
warfare?
    Mr. Deptula. Yes, sir. I think Colonel Macgregor outlined 
some specifics. I would tell you that the nature of future 
warfare is going to depend on the particular situation and 
scenario. Clearly the situation that might exist in the 
conflict in the South China Sea is very different than the 
specifics of one that Doug just spoke about that might occur in 
Central Europe.
    However, I can postulate some changes in the character of 
those conflicts from those in the past.
    First, information, always prized, is going to become the 
dominant factor in the battlespace. Who has the greatest 
situational awareness is going to win.
    Second, electronic warfare is no longer going to be just an 
enabling capability. It will be a survival requirement. The 
proliferation of high-end electronics has made offensive cyber 
operations in electronic warfare the modern military equalizer. 
We see some of that going on today without full-scale warfare.
    As you pointed out, Mr. Chairman, area denial will become 
the norm, not the exception in the future. The conditions of a 
major theater war will be very different from the experience of 
the members the U.S. Military has today. It is an interesting 
fact that over 85 percent of the Active Duty U.S. Military has 
joined since 9/11/2001. So their experience is primarily in the 
counterinsurgency and counterterrorism environments of Iraq and 
Afghanistan. You went through some of the challenges, heavy 
opposing artillery or armor, barrages of theater ballistic 
missiles, the rear areas under attack, surface-to-air missiles 
ranging hundreds of miles, smart mines, quiet submarines, and 
so on and so forth. Remotely piloted aircraft that we have 
become used to relying on today, non-survival, non-stealthy, 
are going to start falling from the sky like rain. So we need 
to be able to anticipate those kinds of characteristics.
    Because of these factors, warfare in the future will by 
necessity become more disaggregated, a word that Doug 
mentioned, than in the past. So we better get used to fighting 
effectively in a much more decentralized and degraded set of 
conditions than what we have become used to over the last 15 
years.
    We also need to reverse the culture of ``mother, may I'' 
force application and empower our warfighters with execution 
authority. Senior commanders need to provide guidance regarding 
desired effects of the campaign and then empower the 
warfighters to fight.
    Senator Cotton. Thank you, General.
    Senator King?
    Senator King. It is hard to know where to start.
    All of our discussion is about kinetics essentially. 
Russia, I would argue, has achieved an extraordinary success in 
the last several years if they set out to destabilize the West 
and undermine Western democratic values. We do not know what 
the outcome of the election is going to be in the Netherlands 
today. They are active now in France and Germany. They were 
clearly active in our elections here. Somebody once said--I 
think it was after September 11th, one of the conclusions was 
our response was a failure of imagination. We have to use our 
imagination to realize that if they set out to destabilize 
Western values, they have done it without firing a shot, and 
that has got to be part of our strategy. That is simply a 
comment.
    One of the things that concerns me--and we all sort of take 
this for granted--is the heightened levels of communication and 
capacity to integrate. General Deptula, you mentioned that. If 
our strategy is based upon seamless communications, what 
happens when the wires are cut? I was heartened to learn that 
at the Naval Academy I think just this year they started 
teaching celestial navigation again after a 20-year lapse 
because everybody assumed GPS was the answer. How do we deal 
with the problem of cyber or electronic warfare that blinds us, 
the electronic equivalent of J.E.B. Stuart being off chasing 
boots instead of being Lee's eyes and ears. General Deptula?
    Mr. Deptula. Yes, sir. Those are excellent points. As you 
noted in our discussion earlier, I am a big advocate of linking 
our forces together to use information as an advantage. 
Obviously, we have to be prepared, however, for adversary 
attacks that degrade the perfect exchange of information 
because regardless of where technology goes, there will always 
be the unexpected. The fog of warfare is not going to be blown 
away by technology. It will always be present.
    So, therefore, ensconced in this whole notion of seamless, 
ubiquitous sharing of information must be, again, the ability 
to operate in conjunction with the commander's overall 
strategic intent even if you are disconnected from different 
elements of this combat cloud that I have advocated. So we have 
to make the ability to operate in degraded structures part of 
the norm, part of our training processes.
    I am very concerned that over the last 15 years--and this 
is what I alluded to in my opening remarks--we have gotten so 
used to modern telecommunications providing connectivity. What 
happens when that goes away. This is what I mean by we also 
have to reverse this whole notion of ``mother, may I'' warfare. 
So commander's intent need to be understood by all the 
warfighting elements so that if they are disconnected, until we 
are able to reestablish connectivity, they can still fight and 
contribute to the overall mission commander's objectives.
    Senator King. Colonel, do you want to comment?
    Mr. Macgregor. A couple of things. First of all, as we look 
at this proposed formation that we would like to build using 
rapid prototyping, leveraging existing technologies, existing 
platforms, not inventing new things or expecting someone to 
break the laws of physics in the process, as we look at this, 
we can do a lot of things today with communications that exist 
that we are not using, for instance, in the United States Army. 
We have access to something called WiMax, fourth generation 
telecommunications. If we were to adopt that and encrypt it, 
breaking that system would take a super computer 1,000 years. 
So one of the solutions to the cyber threat is good encryption. 
But to do that effectively, we need to look at new technologies 
that we can rapidly integrate today on the ground that will 
make a huge difference.
    Senator King. The word ``rapidly'' does not apply very much 
to our organization of our military. That is a term you do not 
hear very often.
    Mr. Macgregor. Well, I do not disagree with you, but that 
is a self-inflicted wound in most cases.
    One of the things that we looked at when we developed this 
reconnaissance strike group--we looked at what the Germans did 
in the late 1920s and early 1930s. They set up a group of 
people independent of the conventional army, and they were told 
to look at all the new technologies of warfare and how they 
would organize those technologies and soldiers and airmen 
differently. The result of that was that by 1935, you had five 
new armored divisions emerge with new battle groups inside of 
them that looked nothing like anyone had ever seen in history. 
It also produced the Stuka dive bomber and the idea of air-
ground coordination and close integration between the air and 
the ground, which was revolutionary and frankly a strategic 
advantage over everyone that the Germans fought for many years.
    Senator King. But it is interesting you pointed out that 
this innovation came from a group outside of the military.
    Mr. Macgregor. Yes.
    Senator King. My note said organizations are rarely 
reformed or restructured----
    Mr. Macgregor. Exactly right. That is why the idea behind 
the reconnaissance strike group is that you do not build this 
inside the Army. You take it outside of the Army. It has to 
have the participation of all the services.
    The Army historically has built its formations in isolation 
from the other services. That is impossible today. First of 
all, we cannot afford it. Secondly, we need to leverage what 
already works in the other services. We need an Air Force 
officer, a naval officer to stand there and say, wait a minute. 
Before you buy X, before you invest in this, be aware of what 
we have already got that actually works right now in the Air 
Force and in the Navy. That can be rapidly integrated to fill 
that capability shortfall.
    The same thing is true with weapons, rockets, missiles, all 
of these kinds of things, but also organizational constructs. 
What are you building the construct to do? We today have a 1942 
construct called the brigade combat team. That is the 
regimental combat team from 1942. It is still organized around 
the same old functions that we have been organizing for 
decades. Those functions do not necessarily vanish, but they 
are not necessarily the right functions anymore because today 
we have the capability to detect an enemy, target an enemy, 
attack an enemy much earlier than we ever did before. Today 
formations on land need to look a lot more like ships at sea 
because we have the capability within these formations to build 
an ISR-strike construct that can be linked to larger constructs 
in the other services. So the RSG [Reconnaissance Strike Group] 
needs to be a special purpose organization.
    I am sure you are familiar with Mr. Christensen's book, 
``The Innovator's Dilemma.'' In his book, he points out that 
many, many corporations have squandered the impact of new 
technologies, new organizations, new management techniques 
because they tried to push them in the existing organization, 
which of course worked tirelessly to destroy it.
    Senator King. The mouse was invented at Xerox Park. It was 
developed by Apple.
    Mr. Macgregor. Right. No matter what anybody says, Peter 
Drucker was right. He said if you want to stop doing something 
old, you have got to start doing something new. People always 
cling to what is obsolete. People are comfortable with what 
they know. They are not comfortable with the unknown.
    The RSG is the march into the unknown because if we do this 
properly and we prototype the platforms and we use new 
communications technology, we involve the Air Force and the 
Navy, we are going to discover what we do not need anymore, 
things that we can shed. We do not need to spend money on 
things that no longer have much utility.
    On the other hand, we could also discover what it is that 
we need that we do not have. But we will only do that when we 
do, as the Germans did, put these things into the hands of 
soldiers, sergeants, lieutenants, and captains, majors, 
lieutenant colonels and say tell us what this does. Show us how 
this works. Then they will come back and tell you what the 
answer is. That answer may or may not be popular with the 
status quo, but it is the answer we have to find.
    Senator King. Thank you.
    Senator Cotton. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman, and thank you all 
for being here.
    I would like to start by asking a question about the future 
of our ground forces. The Army went into Iraq in 2003 with 
absolutely unmatched capabilities and then quickly became 
bogged down facing a determined adversary that effectively used 
low-grade technology to harm our troops.
    In recent years, senior Army officers have cautioned 
against the myth that advanced technology will win wars. While 
I think most people would agree that technology alone will not 
win wars, I think we turn away from technology at our peril. In 
fact, potential adversaries such as Russia and China are 
rapidly capitalizing on and integrating new technology in their 
ground forces.
    So that is what I wanted to ask about, and if I could start 
with you, Mr. Scharre. Could you name the three technologies 
that are in development that you think have the greatest 
potential impact on ground warfare in, say, the next 5 to 10 
years and how it is that we should be thinking about developing 
and integrating them?
    Mr. Scharre. Absolutely, Senator. Thank you.
    I think there are some very clear things that we can look 
at, what Russia has been modernizing its forces and the way 
they have been employing them in the Ukraine. We can see places 
our Army is falling behind. Electronic warfare, protected 
communications on the move, long-range precision fires would be 
at the top of that list. There are other areas like active 
protection systems for ground vehicles that the Army looks like 
they are moving forward on, integrating those. There are other 
places like integrating more robotic and unmanned systems that 
the Army has been really, I think, doing a pretty innovative 
job with their aviation fleet towards pairing them with Apache 
helicopters. But I think those are some of the key things 
where--and those technical skill sets, the electronic warfare, 
communications, and particularly long-range fires-- those are 
the places where the Army has fallen behind.
    Senator Warren. That is very helpful.
    General Deptula, can I ask you to weigh in on that?
    Mr. Deptula. Yes, Senator.
    The first one that comes to mind, the greater incorporation 
of remotely operated ground vehicles. We have seen the benefits 
of remotely operating airborne vehicles, also known as drones, 
unmanned aerial vehicles, whatever you would like to call them. 
But unmanned ground vehicles is certainly an area of potential, 
as is directed energy both from an offensive perspective and a 
defensive perspective.
    Senator Warren. Could you say a little more about that?
    Mr. Deptula. Directed energy?
    Senator Warren. Yes.
    Mr. Deptula. If you look at the potential of directed 
energy to assist in air defenses, we are still challenged by 
the attenuation of directed energy beams inside the atmosphere, 
but there still have been very successful applications in 
close-in, short distances.
    The second piece on the offensive front is the use of 
microwaves as a nonlethal means to render an adversary or 
people as they approach in a close environment.
    So those are two that I would highlight.
    Senator Warren. That is very interesting.
    Colonel Macgregor, could I ask you the same question?
    Mr. Macgregor. Senator, I think the capabilities that we 
need, the technologies we need exist as opposed to the 
requirement for development.
    I am much more skeptical of the near-term realization of 
weapons from lasers. I think the problems with the atmosphere, 
the problems with powering lasers are just enormous. We are 
having a number of problems. We have worked on this airborne 
laser for years and years and years. It has not worked. I would 
not expect much from that for a very long time.
    Robotics, at least on the ground, is very--they are very 
problematic. It is not a matter of better algorithms. A man 
really has to control it, has to maneuver it. They are 
relatively easily destroyed by enemy fire. We found that in 
Afghanistan when we sent them into caves. We found that in 
Iraq. So I think there are lots of expectations of micro-robots 
that are unrealistic. Everything requires infrastructure. 
Everything requires a human being. There is no artificial 
intelligence. There are better algorithms, but real artificial 
intelligence, to quote one physicist, is an analogous to a 
medieval sculptor trying to reengineer or reverse engineer a 
jet aircraft today. We are a very long way from that sort of--
--
    Senator Warren. Sir, actually I understand your point about 
what you think will not work. Are you telling me you have 
nothing on your list for development in the next 5 to 10 years?
    Mr. Macgregor. When I look at development, first what I 
want to do is take what is there that we know works and rapidly 
prototype it, integrate it, and employ it as opposed to 
speculating. First of all, I am not a physicist.
    Senator Warren. So I take that as a no.
    Mr. Macgregor. Yes. I really do not want to walk down that 
road because at this point the things that we need we can get 
now at relatively little expense, and we can find out what they 
can or cannot do. Based on that, I think then we can establish 
where we might want to go in the future with other things. I 
mean, to sit here and say do we need a new tank, for instance, 
I would argue that we need new gun systems, new platforms. The 
platforms need to be modular. The platforms need to be more 
fuel efficient. Could we do with a bigger, better gun, in many 
cases, yes. We have a 130 millimeter tank gun right now that 
exists. For an 8 percent increase in the caliber of the gun, 
you get a 50 percent increase in the striking power.
    Senator Warren. Okay. I get your point that there are 
places where you think we can make changes at the margins.
    Mr. Macgregor. No, no, no, no. These are profound changes, 
Senator.
    Senator Warren. I just have to say I am concerned that if 
we believe that the lesson out of the Iraq war is that 
technology and new technology will not be important in future 
combat----
    Mr. Macgregor. No. I did not say that.
    Senator Warren. I am sorry. That is what I hear you say.
    Mr. Macgregor. No, not at all. Absolutely not. In fact, we 
spent some time at the beginning talking about the fact that 
comparatively speaking, that was a low-tech environment because 
it required a different kind of soldiering in order to be 
successful, and people operated under extremely restricted 
rules of engagement that made a huge difference to the 
effectiveness of the force.
    You mentioned that we were unmatched in 2003, and I would 
tell you that is absolutely not true. We had tanks with turbine 
engines in them that had perhaps, at the most, 7 to 8 hours of 
fuel capacity.
    Senator Warren. Are you telling me that the Iraqis had 
better technology in 2003?
    Mr. Macgregor. No. What I am telling you is that we were 
not unmatched. We were already at a point since 1991 of having 
effectively stagnated. We had not moved forward. We had not 
prototyped equipment.
    Senator Warren. We were up against an enemy that we had far 
superior technology.
    Mr. Macgregor. Yes, but that enemy was quickly brushed 
aside. No. You are talking about the problems that ensued when 
the decisions were made--policy decisions--to dismantle the 
government, liquidate the army, and then govern a Muslim Arab 
country with European Christians and Americans who had no 
chance of success in that endeavor. They were sabotaged on day 
one. We had 500 years of history and experience with that when 
we went in there. I was on Active Duty at the time.
    Senator Warren. I think there are a lot of people who were 
injured in that conflict by low-grade technology----
    Mr. Macgregor. Sure.
    Senator Warren.--that was matched against our very high-
grade technology in ways that surprised many both in the 
military and in civilian life.
    Why do we not leave it there and I will ask about the UAVs 
[Unmanned Aerial Vehicles]? Because I have a question about how 
they have changed, how we think about their combat.
    In 2001, we went to Afghanistan with a small number of 
drones. All a drone could do at that point was take a picture. 
Today the U.S. Military has over 7,000, many of which are armed 
with missiles. Many are involved in strikes on ground targets.
    Deputy Secretary Bob Work has spoken at length about 
integrating manned and unmanned systems. In a recent episode of 
60 Minutes,? Dr. Will Roper from the Defense Department's 
Strategic Capabilities Office actually demonstrated how more 
than 100 tiny drones could operate autonomously as a swarm 
after being released from the back of a Navy fighter jet.
    Now, these UAVs were developed in Massachusetts at MIT's 
[Michigan Institute of Technology] Lincoln Laboratory, and the 
tests showed they will some day be able to patrol air space, 
penetrate enemy defenses, or even serve as decoys for our 
manned aircraft. That, obviously, helps protect our pilots. In 
short, they have the potential to revolutionize what air combat 
looks like.
    So if I could ask you about this. What types of 
capabilities do you think that the Air Force should be focusing 
on when it comes to these unmanned aerial systems. General 
Deptula, would you like to start?
    Mr. Deptula. Sure.
    The subject is one that is personal because yours truly was 
a director of the air operations center in October, actually 
October 7th, 2001, when we first employed a lethal weapon off a 
remotely piloted aircraft in combat. Then I had the good 
fortune of overseeing the increase in investment in numbers in 
remotely piloted aircraft in the first decade of the 21st 
century, increasing the use of those aircraft in the Air Force 
by over 500 percent.
    Senator Warren. So I found the man to ask the question.
    Mr. Deptula. So I am a fan.
    We need to continue to exploit the advantages that the 
persistence of remotely piloted aircraft provide. Today I will 
tell you that is probably the biggest single advantage because 
they give us the opportunity to watch a particular area of 
interest and then to determine what the appropriate course of 
action is. Contrary to some of the popular mythology that these 
are very inaccurate vehicles, they actually provide the United 
States an advantage in the context of providing the greatest 
ethical oversight before weapons employment is considered 
because of this persistence and ability to operate over time 
and the most precise means of employing force at a distance.
    You mentioned the issue of swarming. In addition to 
swarming, the Air Force is also pursuing the concept of loyal 
wingmen where you use unmanned aerial vehicles in a variety of 
different modes to act as weapons drones, if you will, or mules 
carrying additional weapons for aircraft like F-35, F-22 where 
those information sensor shooters can then control a series of 
unmanned aircraft to amplify the effect of being in any 
particular area.
    So it is a wide open area that needs continual investment 
and exploitation.
    Senator Warren. With the chairman's permission, may I ask 
the other two?
    Colonel Macgregor, would you like to weigh in on that?
    Mr. Macgregor. I agree with General Deptula. The only thing 
that I would point out is that unmanned systems can be shot 
down just as readily as manned aircraft.
    Senator Warren. I do not think he suggested otherwise.
    Mr. Macgregor. No, but I think people miss that point. 
There is a tendency to assume that the unmanned system will be 
more survivable and be less vulnerable and that the answer is 
to have more of them. Certainly having many of them is very, 
very important, and in the RSG, we built those into the system 
for that very reason. But the point is they are still 
vulnerable, and they are not unmanned because there are huge 
numbers of people on the ground that are required in order to 
maneuver them and employ them effectively. But persistent 
surveillance is critical, and whatever you can do to achieve 
that is key to victory.
    Senator Warren. Mr. Scharre, would you like to add 
anything? My question is where is that the Air Force should be 
focusing at this point in dealing with the unmanned aerial 
vehicles?
    Mr. Scharre. Thank you, Senator.
    I think that this vision that General Deptula outlined 
about an idea of a loyal wingman combat aircraft that could 
operate alongside F-22's, F-35's, the new B-21 in contested 
areas is actually the biggest capability gap the Air Force 
faces today. The Air Force is not developing that aircraft. Now 
it is absolutely essential because of this ability to have 
greater persistence. So it is not just a whiz-bang technology. 
The problem is that in an anti-access environment, we are 
fighting from very long ranges. Enemy missiles, ballistic and 
cruise missiles put all our airbases at risk. We have to fly 
from very long distances, and there are just fundamental limits 
of what a human can do in a cockpit and remain combat 
effective.
    Now we can put up a refuelable stealthy combat aircraft. 
They can stay up for hours, days at a time. We have seen non-
stealthy aircraft stay up for 80 hours. So we have a large 
fleet of non-stealthy aircraft that would not survive in these 
environments. The Air Force has invested in a very small number 
of stealthy reconnaissance aircraft, but it does not right now 
have a stealthy combat aircraft, which is really the biggest 
gap they need to fill.
    Senator Warren. All right. That was very helpful. Thank you 
very much.
    Thank you, Mr. Chairman.
    Senator Cotton. We have spoken a lot about technology 
today, but one point that keeps occurring is the human element 
of warfare.
    Colonel Macgregor, do you foresee a time in the future when 
we will ever fight in a fashion in which the war does not end 
up with infantrymen on the ground in the mud?
    Mr. Macgregor. Near term, no. We will still have to put 
human beings at risk. Even if you mount most of your infantry 
inside armored vehicles, inevitably they are going to dismount 
at some point. We can extend their capability using various 
kinds of unmanned systems, whether they are drones or ground 
robotic vehicles. But these things can extend human potential. 
They cannot necessarily substitute for it. They cannot replace 
human judgment, human reasoning, human understanding. That is 
really the point I was trying to make on artificial 
intelligence. We have to be very careful of our assumptions 
about how far we can go with that.
    Senator Cotton. General Deptula?
    Mr. Deptula. If we want to be able to accomplish as a 
Nation our national security objectives, we have to be able to 
exploit the capabilities resident in each one of our services, 
Army, Navy, Air Force, and Marines, Coast Guard. But how we 
employ our forces should not be dictated by a predetermined, 
formulaic solution. So, no. Every conflict is not going to end 
up with an infantryman standing on top of his adversary with 
his boot on his neck and a bayonet at his throat. Examples I 
would provide to you are the manner--let me go back a step 
because this goes back to my statement.
    To be effective in the future, we need to apply the right 
force at the right place at the right time. It is not always 
going to be a predetermined fashion. That is the beauty of 
jointness is each joint task force commander has at his or her 
disposal service components that they can then mix and match to 
apply to the particular contingency at hand. So when you look 
at how we did in Operation Desert Storm, surface forces were 
not used for the first 39 days of a 43-day operation. If you 
look at Operation Allied Force, U.S. ground forces were not 
used at all. If you look at Operation Enduring Freedom, we 
accomplished U.S. national security objectives by the 31st of 
December, 2001 with a small number of special operations and 
other government agency folks acting as ISR [Intelligence 
Surveillance & Reconnaissance] centers on the ground providing 
information to aircraft using precision weapons in the air.
    So my point is we have to be very careful about we are 
always going to use infantry. That is the only caution. We 
should always have that option available to be able to tailor 
the use of our expert forces when and where they are needed.
    Senator Cotton. Mr. Scharre?
    Mr. Scharre. So thank you, Senator.
    I admit that perhaps I am biased as a former infantryman. 
But I think, obviously, wars are different, and there have been 
some examples like the Kosovo air campaign. We did not put in 
ground troops. But can I envision a world where we do not have 
to use ground troops in the future? It is very hard for me to 
envision that for the simple reason that we are going to care 
about the political outcomes on the ground. That is going to 
motivate why we going to war. We got stuck in Iraq and 
Afghanistan because we cared about the political outcomes of 
those countries afterwards.
    So the unfortunate thing is that as much as the Military 
has been able to invest in new technology to improve its 
capabilities, as Senator Warren mentioned, we really have not 
been able to change that at the level of the infantry soldier. 
So in World War II, the three most dangerous jobs in the U.S. 
Military were in bombers, submarines, and the infantry. We were 
able to leverage technology in these other areas for things 
like stealthy submarines, stealth bombers.
    But the infantry is as dangerous as it has ever been. Part 
of that is the fundamental limitations of a human being and 
what that person can carry. It never changed since Roman times. 
Every time we give more protection to a soldier on the ground, 
we give them more body armor. We are weighing them down. We are 
slowing them. There is no way out of that trap. Technology 
cannot fix this today.
    But there are some things that we can do in the near term 
and long term to change this to make infantry more survivable 
for those soldiers that are on the ground.
    One is better helmet protection. Traumatic brain injury 
(TBI), is the signature wound of these conflicts. Experimental 
modeling and tests have shown that there are ways to design 
better helmets that could protect soldiers against brain 
injury. We do not currently have a requirement to do that. That 
is, I think, a big gap in the U.S. Army, that we should 
establish a requirement to better protect soldiers from brain 
injury.
    Two, exoskeletons. That is further down the road, but the 
Army does not have an active program to develop this. There is 
technology now on the horizon that we can see that might be 
able to get to a place where soldiers could carry more, be more 
mobile, have better protection.
    Three, robotic teammates. We have seen some of these 
demonstrated in things like the BigDog and AlphaDog system that 
are viable.
    The last one is human enhancement technologies, things like 
transcranial direct current stimulation, pharmaceuticals like 
modafinil that could increase alertness and cognition for 
soldiers and other service members to improve their 
capabilities and their survivability.
    Senator Cotton. Colonel Macgregor, in the old days, the 
Army used to say there were five elements of combat power and 
leadership was the most dynamic element because it infused the 
other four. Do they still say that in the Army?
    Mr. Macgregor. As far as I know, we still exalt leadership 
as a critical combat power source, yes.
    Senator Cotton. Given the changing face of war in the 
future and the fact that we in the old days--and by old days, I 
mean about 10 or 12 years ago--the Army used to refer to C2 
(command and control). Then it went to C3 [command, control, 
computers]. Then it went to C4 [command, control, computers, 
cyber], and then it went to C4ISR [command, control, computers, 
cyber, intelligence, surveillance, reconnaissance], maybe on 
something else now with more acronyms. What differences would 
you expect to see in ground combat leaders of the future as 
compared to ground combat leaders of the last 25 years?
    Mr. Macgregor. We have been on the road to increasingly 
greater dispersion of capability and combat power on the 
ground. That inevitably puts enormous responsibility and 
pressure on the leadership at the lowest level. If you are 
going to man a front of, say, 80 miles and cover that into a 
depth of another 60 or 70 miles and you are only going to have 
6,000 men mounted in various kinds of vehicles with the kind of 
ISR-strike capability that we have been discussing, then the 
individual who is somewhere on mile 62, who is in charge of 
perhaps one or two vehicles, has to be able to make decisions 
and think. He has to understand the intent of the operation. He 
has to know what his commander wants him to accomplish. He has 
to know what the battle is supposed to look like, in other 
words, on the basis of what the commander's mission is and the 
mission that he has been assigned. He cannot depend upon 
micromanagement. He cannot assume that a lieutenant, a captain, 
a major, lieutenant colonel is going to show up and tell him 
exactly what to do.
    I think this has been true for a long time. The Army has 
resisted because they fear failure, and their concern is that 
someone at a low level will make a decision that will cause 
failure at higher levels. But the nature of this future 
battlefield that we have been discussing makes that 
unavoidable. The nature of how you cultivate, identify, for 
that matter, recruit people has got to change.
    One of the things that was very clear from the study that I 
have been through over the last several years in Margin of 
Victory is that, frankly, the more intelligent the soldier, the 
better the soldier and the more effective the unit. So you want 
someone who is highly intelligent, who can grasp what it is 
that you are expecting him to do, and then can make decisions 
within that framework that are going to be successful.
    Senator Cotton. In that future, the old joke about military 
intelligence being an oxymoron may no longer obtain?
    Mr. Macgregor. No, sir, absolutely not.
    Senator Cotton. Thank you.
    Senator King?
    Senator King. Well, as confirmation of what you just said, 
I suspect one of the most intelligent people ever to serve in 
the United States armed forces was Joshua Lawrence Chamberlain 
of Maine who spoke 10 languages, was a college professor, and 
one of the most successful leaders, of course, at the battle of 
Gettysburg. Being from Maine, I cannot resist making that 
observation.
    Colonel, you have talked several times about the RSG. Give 
me a succinct differential between the brigade combat force and 
the RSG. What is the difference? How do we identify one from 
the other?
    Mr. Macgregor. Well, first of all, sir, your BCT [Brigade 
Combat Team], depending upon whether it is infantry or armor--
again, that is the World War II construct--numbers somewhere 
between 3,500 up to perhaps 4,200 or 4,300. So some are going 
to be armored. Some will be light infantry. They are commanded 
by a full colonel. He has a lieutenant colonel as an executive 
officer, and he has a staff of captains.
    Senator King. He or she, Colonel. He or she. That is not a 
question. That is a statement. You keep saying he.
    Mr. Macgregor. Yes. Well, I fully expect that if you go 
into close combat and fight the kinds of people that we are 
fighting, I would be surprised to see large numbers of women 
forward in the battle zone. History may prove me wrong, but 
that is my expectation based upon the last 5,000 years of 
history.
    The bottom line is that this is an organization that is 
designed for linear warfare. You line up your brigade combat 
teams under a division headquarters. The brigade combat teams 
are, in turn, supported by divisional assets brigades, and then 
you move forward and fight in that fashion.
    The reconnaissance strike group is 6,000 men commanded by a 
brigadier general. He has a staff of lieutenant colonels. The 
lieutenant colonels are organized, unsurprisingly, not as G-1, 
G-2, G-3, G-4, as we have seen in the past, but around ISR, 
strike, maneuver, sustainment, information, cyber, 
intelligence, and so forth. This formation then is designed to 
operate intimately with the aerospace community, the aerospace 
power that we have so that they are effectively, if you will, 
joined at the hip both technologically and in terms of----
    Senator King. That is not true of a modern BCT?
    Mr. Macgregor. No, absolutely not. It does not have the 
ability to plug straight into a joint task force, straight into 
the United States Air Force. What the Air Force does is they 
will send someone down there as a liaison officer so that the 
brigade combat team, as it has for decades back into the Second 
World War, can call for fire support. We are now talking about 
a seamless integration where that reconnaissance strike group 
that has rocket artillery, it has loitering munitions, it has 
automatic mortars can actually also reinforce and magnify 
aerospace power, the striking power of your aircraft, manned 
and unmanned.
    Senator King. General, you have talked in your prepared 
testimony about cloud combat. Is this a similar concept? Again, 
I am trying to get a fix on what these concepts are.
    Mr. Deptula. Yes, sir, it is because what Colonel Macgregor 
is talking about really boils down to information exchange, 
both in terms of being aware of what is going on in the 
vicinity and then being able to capitalize on either the forces 
that are part of the reconnaissance strike group or air forces 
that are operating in the vicinity.
    Senator King. Is the current structure that you have the 
Air Force as a command structure and you have the Army as--are 
you suggesting there should be some--I think you are suggesting 
closer integration. At what point do they become one fighting 
force? Is this sort of Goldwater-Nichols 2.0 on the ground? Is 
that what you are suggesting?
    Mr. Deptula. Not necessarily on the ground. It is, again, 
conceptually how we bring forces together to fight. Today in a 
surprise situation, the first time the airmen and the soldiers, 
sailors, and marines see each other who are going to 
participate in that operation is when they are at the point of 
embarkation to be able to get together and fight. What we are 
talking about is creating structures that inherently rely on 
one another for advantage and to begin the training process 
well before one deploys to fight.
    Senator King. You talk about training because we think of 
training as the Army has their training and the Air Force has 
their training. Is there any integrated training of our forces 
at Fort Benning or----
    Mr. Deptula. Today there is. Yes, sir. But they are very, 
very specific at a tactical level. So you have joint terminal 
attack controllers working with surface units learning how to 
control aircraft. Well, that is a very tactical level activity. 
But in the context of training for and preparing for the 
employment of air and land and naval activities in the context 
of an operational challenge, not so much.
    Senator King. This is, after all, a legislative hearing. It 
is fascinating. But my question is, do any of you have 
suggestions of where we go from here in terms of law, things 
that should be in the National Defense Authorization Act, for 
example, that would change structures, change training systems? 
Do you have suggestions for us as legislators to implement some 
of the changes that you think are important?
    Mr. Macgregor. Yes, sir. At the end of my statement, I have 
two critical recommendations which try to address exactly your 
question.
    Going back to the special purpose organization called the 
reconnaissance strike group, effectively it is a test bed that 
can then provide us with a road map into the future for a 
different kind of formation designed for a form of warfare that 
is now emerging as a result of dramatic advances in technology 
and changes in the international environment.
    The first recommendation is urge the Chairman of the Joint 
Chiefs and the Secretary of Defense to accelerate this modeling 
and simulation of the RSG. We already conducted a modeling and 
simulation exercise with this formation with all of its 
capabilities. We are very confident of its performance. It was 
not high fidelity. We are going to get a better, more high 
fidelity modeling and simulation. But while we are doing that, 
we need some money so that we can take platforms--and the 
platform that I think is the best available right now is the 
German PUMA--and put different kinds of systems on that 
platform and begin to build a battalion set that then becomes 
the experimental force that will tell us what we want in the 
future.
    The second part of this is to look at integrative command 
structures. In the statement, I give you a straw man for what I 
call the joint force command structure. These are structures at 
the three-star level that are designed to replace your standing 
corps, Marine expeditionary forces, air forces, and so forth. 
Now instead you have an integrated structure organized around 
ISR, strike, maneuver, and sustainment, and we need to stand 
one up using officers from the various services and put it 
together and decide what we think it can and cannot do. In 
other words, in parallel with the formation that we are trying 
to build on the ground for all arms-all effects joint warfare, 
we need the command and control structure to develop 
simultaneously so that we end up in 3, 4, 5, 6, 7, 8 years with 
the solutions that you are asking for.
    How fast we get there depends upon how much emphasis we put 
on this, how much resolve is included, how much you as the 
civilian leadership demand from the uniformed leadership 
because, again, as you pointed out earlier, when you begin to 
talk about integrative force structures that come at the 
expense of what we think of today as single service force 
structures and single service headquarters that provide lots of 
jobs for generals in the Army, Navy, Air Force, and Marines, 
and admirals, it is very threatening because you are talking 
about an operational command structure that is different from 
what we have now. They are not sure where they fit in. Again, 
these are the things that you have to do as civilians for us. 
We cannot do it for ourselves.
    Senator King. Mr. Scharre, your thoughts about what do you 
want us to go back and think about in terms of changing the 
rules, structures, legislation that would help to better 
prepare us for this new kind of warfare?
    Mr. Scharre. Thank you, Senator. Yes, I do have some 
suggestions along those lines.
    First, I cannot let this slide. I do think, Colonel 
Macgregor, the last 15 years of war have proven you wrong that 
we have had women prove themselves in combat. I have fought 
alongside some of them.
    To your question, Senator, I think the biggest thing that I 
think history shows is valuable in situations like this is 
experimentation. So I do not know what a new organizing 
construct would look like, but I do think that there are enough 
emerging technologies to suggest, whether it is cyber, 
electronic warfare, robotics, that the Army should task a unit 
to go and experiment with these things and figure out how do we 
fight with this. This is what the Army did between World War I 
and World War II. The Army conducted a series of experiments 
called the Louisiana Maneuvers to figure out how to use tanks. 
Now, the biggest problem is the Army did not start that until 
1940. I mean, the Army thought about tanks before, but they 
really did not kick off those large scale maneuvers until very 
late in the game.
    I think if we can get ahead of that curve now and start 
doing those experiments, then we can go figure it out, figure 
out how do we use these things, how do we use robotics, how do 
we use other technologies, how do we use artificial 
intelligence and automation to manage command and control 
problems, how do we fight without communications if we do not 
have it. How we fight in cyber makes us very vulnerable, and 
everything that is electronic goes down. So you got to break 
out the compass.
    I think that organizational concept is really key to 
figuring out those innovative solutions.
    Senator King. General, do you have thoughts on this?
    Mr. Deptula. Well, I will not elaborate too much except to 
say this is all about leadership, and it is also about the 
service and the joint leadership supporting these kinds of 
activities. I do not think it needs to be legislated, although 
encouragement certainly would help to kind of break out of the 
current operating paradigm and to encourage experimentation.
    We have had, over the last several years, folks talk about 
bold thinking and innovation. But although there are 
exceptions, we have not seen a whole lot of that going on in 
the Department of Defense lately.
    Senator Cotton. General Deptula, is it fair to say that you 
were somewhat involved in the air campaign in the Gulf War in 
1990 and 1991?
    Mr. Deptula. Yes, sir.
    Senator Cotton. How important are the lessons learned from 
the Gulf War for our adversaries' modernization plans over the 
last 25 years, in particular China and Russia?
    Mr. Deptula. That is a wonderful question, Mr. Chairman.
    They actually learned the lessons that we delivered out of 
Operation Desert Storm. What they learned is not to give the 
United States the time to deploy and build up force structure 
in theater. They learned not to give the United States air 
forces--little A, little F--from all the service components the 
advantage of being able to operate over them because when that 
happens, we dominate. They have worked very, very hard over the 
years to come up with tools and techniques and strategies to 
deny us that advantage, which has resulted in the whole notion 
of A2/AD, or anti-access/area denial, strategies. They continue 
to work on those efforts. So our adversaries paid attention to 
what we did and they are committed to ensuring, to the best of 
their ability, that we are not able to achieve those advantages 
in the future.
    Senator Cotton. Is it fair to say that they spent the last 
25 years trying to ensure that what happened to Iraq in 1991 
would never happen to them?
    Mr. Deptula. Yes, sir.
    Senator Cotton. For the life of our country, we have mostly 
thought away games, especially in the last 100 years. Do you 
anticipate that we will continue to fight away games in the old 
world in the future?
    Mr. Deptula. Yes, I do expect that we will be fighting away 
games because, quite frankly, that is a premise of our national 
security strategy that I would tell you there are two critical 
tenets that have remained ensconced in that strategy regardless 
of the administration in power. The first one is that U.S. 
Military forces will be employed and engaged around the world 
during peacetime and attempt to shape and stabilize the 
different regions to prevent warfare. The second one is if we 
do have to fight, we will be prepared to do so in more than one 
conflict simultaneously in an expeditionary fashion away from 
U.S. shores.
    Now, that does not mean that we should not be prepared for 
the information age warfare, which we have already seen being 
perpetrated upon us in the realm of cyber attacks, cyber 
warfare, not to mention the obvious attacks that were pretty 
imaginative in the context of what happened on 9/11.
    Senator Cotton. Well, given that, we will then continue to 
be heavily dependent on space and undersea fiber optic cables 
in particular, as we have discussed here, our great reliance on 
information operations. Is that right?
    Mr. Deptula. Yes, sir.
    Senator Cotton. Colonel Macgregor, you wanted to add 
something?
    Mr. Macgregor. Sir, I would just add one thing. There is a 
nexus of terrorism and criminality in the Caribbean Basin that 
we ignore at great peril to the United States. Mexico is 
effectively a failed state in most respects. If you turn to the 
United Nations statistics on criminality and organized crime, 
right now Mexico, El Salvador, much of Central America is 
frankly more dangerous and more problematic than Iraq by far.
    The problem for us with Mexico, ever since we finally had a 
border with Mexico, has been its tendency over the years to 
ally itself with whoever was our enemy. We have intervened in 
Mexico as a result several times. We intervened in 1873, 
intervened again in 1915 and 1916 in response to the Mexican 
revolution. Again, there have seen a series of revolutions, 
chaos in that country.
    So my concern is that when we look at what we would call 
general purpose forces fighting major wars, certainly those 
will be overseas, but we have to reckon with the high 
probability that we could have a second front in Mexico and the 
Caribbean Basin that will involve U.S. naval air power and 
ground forces.
    Senator Cotton. No doubt about that as was true in the Cold 
War as well in Central America and Grenada and the threats from 
Cuba.
    Putting aside the conversation we have had is mostly 
focused on that kind of major war against peer and near-peer 
adversaries in the old world, taking into account those 
potential threats from the nexus of terrorism and international 
criminal networks to our south, how would that inform your 
decisions about the forces of the future?
    Mr. Macgregor. Well, first of all, if you are looking at it 
from an Army perspective--and I think you have to--we have to 
truly be able to secure that border on very short notice. We 
need coastal naval forces that can protect our littoral waters 
I would argue more than we have today. That may involve a new 
set of ISR sensors. Some of you will remember that during the 
Cold War, we had the Acoustic Breeze up and down both coasts 
that alerted us to Soviet submarines. We may have to look at 
things like that for our coastal waters as well, different 
kinds of technologies.
    Do we want to actually go into these countries? Not if we 
can avoid it, but we may have to execute punitive operations if 
we identify serious threats that could be arrayed against us. 
The problem right now is that something like a cruise missile 
is easily launched from a location without much warning. The 
location could be identified, but by the time you arrive, the 
cruise missile is launched and the people that launched it may 
be gone. We will probably face some of that. I am not saying 
exclusively in Mexico. There are other places in the Caribbean 
from which that could also be done. We have to think about how 
we will respond to those things.
    Then you have to have a more agile and flexible force 
structure. That is not necessarily going to require a mobile 
armored force, but that may require an air mobile force of some 
kind and it may require a different kind of light infantry 
force that is designed to go in, execute an operation, and get 
out quickly from the land, from the sea, from the air, whatever 
it turns out to be.
    This is why the problem that we have I think to a large 
extent is the tendency to move towards the one-size-fits-all. 
We have to maintain forces with a variety of capabilities. So 
we are looking at different kinds of mission-focused capability 
packages. Those are the things that we need to begin building 
now for the future. We cannot wait. The old force package with 
its roots in 1942 is not the answer for the future.
    Senator Cotton. Thank you.
    I want to return to one discrete item you had said earlier, 
Colonel Macgregor, about how the future vehicles in the Army 
for reasons of physics will exclusively have to be tracked 
vehicles as a matter of physics. Is that because of the weight 
of the armor those vehicles will require?
    Mr. Macgregor. Not necessarily. The difference between, 
say, an 8-wheeled vehicle and a tracked armored vehicle very 
straightforwardly is the following. The track distributes the 
weight very evenly across a large area. For instance, a 70-ton 
M1A1 tank exerts about the same ground pressure per square inch 
that I at 6 foot 2 and 220 pounds do. That means that your off-
road mobility is exceptionally good. It also means that you 
have a very stable platform for a large weapon or an automatic 
cannon, whatever else.
    Finally, if you go back and look at the recent Israeli 
experience in 2007, 2008 in southern Lebanon, they immediately 
went in on roads into that region. Then they suddenly found 
that the roads were obviously picketed by the enemy. They began 
losing equipment and people, so they had to get off the road. 
The problem with getting off the road in southern Lebanon is it 
is very rocky and difficult terrain. It is not convenient flat 
desert. They very quickly discovered that the only vehicle that 
could navigate that terrain, that could resupply forces, that 
could survive whatever was thrown at it was the Merkava tank. 
The Israelis, as a result, when they look at their combat 
formations, whether they are moving infantry or whether it is a 
tradition tank force, everything that they send into enemy 
territory is initially tracked.
    The wheeled vehicle, on the other hand, touches the ground 
at eight points. It exerts a ground pressure of 30 to 40 pounds 
per square inch or higher, depending upon how heavy that 
vehicle is. It has very poor off-road mobility. It is not a 
good platform for advanced weaponry, and its survivability is 
poor because, again, you cannot distribute the weight in a way 
that provides the shell with extreme survivability in the event 
of a blast. So if you have a choice, you are going to opt for 
tracked armor if you know you are moving into enemy territory.
    Is that helpful, sir?
    Senator Cotton. Yes. Thank you.
    Senator King?
    Senator King. Mr. Scharre, what if any are our advantages 
today? In the past, we have always had advantages whether it 
was our industrial might, our technology, our leadership, the 
training and bravery of our people. What do you see as 
advantages?
    What I see is that the advantages that we have had have 
narrowed over the last 15 or 20 years.
    Talk to me about what are our advantages at this point vis-
a-vis our near peers and others.
    Mr. Scharre. Sure.
    I think one of the most striking advantages that comes up 
frequently frankly is our people being better trained, better 
educated, a volunteer force. I think it is absolutely true. The 
disconcerting thing about that is it is easier for others to 
then close the gap. So all our pilots, submariners, our 
infantrymen are better trained than adversaries. Absolutely. 
But it also means that dollar for dollar for training 
investments, they can get closer to us. Right? It is harder for 
us to continue to improve.
    I think looking forward, one area of the United States has 
a tremendous advantage in--and something we have not talked 
much about today--is the artificial intelligence revolution. 
Now, if we are talking about things like Cylons. We are not 
seeing that. Right? Science fiction AI [artificial 
intelligence]. But we are seeing an explosion in artificial 
intelligence in the private sector driven by companies like 
Google, Facebook, Apple, IBM, doing things like self-driving 
cars, managing your taxes, medical diagnoses. Really the United 
States' private sector is leading that charge. Other countries 
are nowhere near. One of the really down sides here is it is 
not coming from the traditional defense sector. DOD has put up 
a lot of walls to working with those companies.
    Senator King. What do you mean by that? DOD has put up 
walls about working with those----
    Mr. Scharre. Just the regulations that are in place make it 
very difficult for companies that are not traditional defense 
companies to work with DOD. The profit margins are not there. 
There are regulations and red tape to work with our acquisition 
and requirements system. I have certainly heard from people 
like venture capitalists say that they will not let their 
companies they give their money to work with DOD because they 
are going to get sucked into a 5-year requirements process 
that, at the end of the day, will not give them a product that 
they can build that they can take to market. The profit margins 
will not be there for them.
    Senator King. That is a terrifying statement because what 
you are saying is the hotbed of technological development in 
this country is largely out of bounds for the Department of 
Defense.
    Mr. Scharre. Yes.
    Senator King. That is a shocking statement that we have got 
to do something about.
    Mr. Scharre. I think Secretary Carter had made efforts to 
try to improve this with some of his outreach to Silicon 
Valley, things like DIUx [Defense Innovation Unit 
Experimental]. I think there is a lot of work still to be done 
here because ultimately it is not about Silicon Valley does not 
know where the Pentagon is. That is not the problem. It is 
about addressing these pain points in our acquisition and 
requirements system to try to find ways to make it easier for 
others to work us.
    A case study on this was, a couple of years ago, Google 
bought out Boston Dynamics, a very cutting edge company that 
was doing very interesting things in robotics primarily for 
DARPA [Defense Advanced Research Projects Agency]. They said 
afterwards that they would finish the government contracts and 
they would not do any further work with the government because 
it is simply just not in their business interest to do so. So I 
think that is something we need to work at, just being a better 
customer on the government side.
    Senator King. General?
    Mr. Deptula. I just want to pile on a bit here with an 
example, which is always useful. There was a small company who 
had a very innovative idea who went to DARPA to try to get on 
contract, and after 2 years, they finally got on contract. But 
as you are very well familiar, the Moore's Law's cycle is 18 
months. By the time they got them on contract, they were 
already off doing something else.
    So these are fundamental structural issues which I would 
like to go back and revisit my comment on where Congress could 
be involved with legislation. I know it has been said a 
thousand times over the last 20 years--maybe more--we have to 
fix our acquisition process.
    Senator King. You mean to say that a 125-page spec for a 
new handgun maybe excessive. Is that----
    Mr. Deptula. Yes, sir. Absolutely.
    I mean, Silicon Valley does not want to do business with 
the Department of Defense. I point to the example I just gave: 
waiting 2 years to get put on contract because of the 
bureaucratic, Byzantine processes that exist.
    Senator King. Of course, the problem is even if they get 
the contract, the development process is so long that the 
product is obsolete almost by definition the day it enters 
service.
    Mr. Deptula. Yes, sir. What would your impression be if you 
went to an auto dealership to order a car, and they said, okay, 
great, it will be ready in 15 years?
    Senator King. Actually the current figure for a new 
aircraft is 23 years.
    Mr. Deptula. I am trying to be optimistic.
    [Laughter.]
    Senator King. Colonel?
    Mr. Macgregor. Sir, let me add something to this that is 
very important. In my statement, I talk about the use of the 
PUMA infantry fighting vehicle, which is a German vehicle built 
by KMW in Germany, Krauss-Maffei Wegmann. The PUMA is very 
interesting because it is brand new from bottom to top. It was 
designed in the space of 3 to 4 years really by a team of 12 
scientists, engineers, and former Active Duty Army officers. 
They built it for 750 million euro. We had something called the 
future combat system that many of you may remember. We worked 
on that for almost a decade, perhaps 8 or 9 years, not quite a 
decade. We spent $20 billion. We had 5,000 technicians, 
engineers, and scientists involved, and we produced nothing.
    Now, the reason I bring up the PUMA is that the PUMA is a 
leap-ahead, and we are not looking at it. We looked at it in 
FCS [Future Combat System], and everyone judged it at the time 
privately to effectively fill the requirement for the future 
combat system.
    Senator King. So why do we not buy the design and build 
them here?
    Mr. Macgregor. Well, you can. The Germans would be happy to 
come over here and set up the factories, bring in their 
advanced technology, their manufacturing processes, and hire 
American labor. But the Army has resisted this because 
historically the Army purchases its equipment from two sources: 
General Dynamics and BAE Systems, which used to be called UDLP 
[United Defense]. Unfortunately, those two firms have evolved 
over the last 15 to 20 years to mimic their client, in other 
words, to give the client what the client has wanted. The 
client has not been interested in anything new. That is one of 
the reasons that you have equipment from the 1970s which you 
can upgrade, but it is absolutely not going to measure up to 
the brand new equipment that is emerging in Germany or, for 
that matter, in Russia and increasingly in China and other 
countries.
    So we have to go overseas at this point. We have to look at 
prototypes that are first-rate and look at their utility for 
us, whether or not we want them and whether or not we can build 
them here. We really need to do that because otherwise, exactly 
what General Deptula said and what you did, the answer will be 
in 20 years we will have something for you and you need to pay 
us X number of billion dollars immediately to begin work on 
that.
    Senator King. Clearly work on procurement is an important 
issue. The process itself--thank you for that.
    Senator Cotton. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thank you for being here and for your 
testimony. Thank you for your service.
    Earlier this year, General Milley and General Neller 
approved a white paper discussing the concept of multiple-
domain battle. The Army's concept describes a, quote, flexible 
means to present multiple dilemmas to an enemy and create 
temporary windows of localized control to seize, retain, and 
exploit the initiative.
    Last month, Admiral Harris spoke about the potential for 
integration of Army's land-based missile defense systems into 
the Navy's defense networks in the Pacific.
    How do each of you think we can make this concept of multi-
domain battle into a successful reality? What do you see as the 
gaps or shortfalls in doing so? General?
    Mr. Deptula. Senator, thanks for the question. It is a good 
one.
    I would like to make sure everyone is aware of the fact 
that the Air Force first began investing in multi-domain battle 
on 18 September 1947 when it was born, when they became a 
separate service because that is what the Air Force does, and 
that is to create effects in multiple domains. So it is great 
to see the Army and the Marine Corps catching up.
    Recently General Goldfein introduced--the Chief of Staff of 
the Air Force introduced--a multi-domain command and control 
program as a priority to effectively tie these multi-domain 
battle capabilities together faster and more effectively.
    What I would tell you in the modern era is the United 
States and its allies need to increasingly seek to attain 
desired military effects through the prudent use of 
information. So every asset that is out there--this is the 
whole notion of this combat cloud thing. It is just not about 
networks. It is about achieving the ubiquitous and seamless 
sharing of information by viewing each of the combat vehicles 
that we use to put together concepts of operation for their 
independent use and treat them as information nodes in this 
whole notion of an ISR, strike, sustainment complex. So that is 
where we need to do the work. We need to do the work 
conceptually to capitalize on what we already have by enabling 
the rapid exchange of information among all these elements.
    A case in point. You know, there has been a lot of 
discussion. You all are very aware of the discussions on the 
Hill and elsewhere. Most of them focus on the acquisition and 
programmatic aspects of F-22 and F-35. But very few realize 
that these aircrafts are not F's. We got to think about them 
differently. They are not just fighters. They are F-B-E-A-R-C-
E-A-W-A-C-S 22's and 35's. They are flying sensor shooters or 
more properly sensor effectors. We need to start thinking that 
way about those PUMAs that Colonel Macgregor talks about, about 
our deployed fleets of ships. You start thinking about an F-35 
as a sensor effector that can penetrate contested airspace and 
relay information to an Aegis class cruiser who then has 
knowledge of a ballistic missile launch that it, using its own 
sensors, could not detect and then be able to intercept very 
rapidly. So that is the kind of direction we need to be moving 
our forces in the future.
    Senator Cruz. Colonel?
    Mr. Macgregor. Sir, the answer is twofold. First, a new 
organization for combat. Armies consist of formations. Numbers 
are very misleading. You can have 600,000 men and a totally 
ineffective force because there is no force until you take the 
men, the people in uniform, assimilate them into an 
organizational construct with technology, train them, and then 
finally move them to the point where you want to use them.
    So, first of all, you have got to look at the formations 
that you have, and they are going to have to be different for 
the future. They are going to have to bring different 
capabilities to the fight from what we do today. Then you have 
to have an integratve command structure that reaches from the 
bottom to the top and back down again. In other words, it flows 
in two directions that does what Dave said but has to become 
multi-service because, quite frankly, in future warfare, to the 
average soldier who is fighting somewhere, it is irrelevant to 
him whether the man with three stars, who is ultimately his 
joint task force commander, is in Navy, Air Force, Marine, or 
Army uniform. Frankly, it does not make any difference to him 
whether it is a man or a woman. He is not interested in that. 
He is fighting a fight at his level that he is trying to 
survive. Whether or not he does, of course, has to do with how 
all of these capabilities are integrated across service lines. 
So making that integration work quickly and seamlessly means 
you need a different command structure from what we have.
    That is why in the statement I provided, there are two 
recommendations. One has to do with a new formation, which 
should explore the capabilities that we need, that will produce 
a different kind of formation from what we have now, and then 
secondly, stand up an integrative command structure as an 
experiment. Use a straw man. Bring in the various services. 
Figure out what that has to look like. Those two things need to 
happen. That is the practical path to realize what is written 
in that multi-domain battle paper.
    Senator Cruz. Mr. Scharre?
    Mr. Scharre. So as General Deptula mentioned, in the early 
20th century we saw warfare expand into air and also undersea 
with submarines. Today we are in a similar place. We are seeing 
space becoming contested in a way that we have never seen 
before. We rely on it for not only communications and 
surveillance but also our global position navigation and 
autonomy through the GPS system. So all of our precision 
weapons--many of them might depend on this, and our 
communications depends on this because of timing. So that is 
something that is at risk. We are seeing now the creation of 
cyberspace, an artificial domain that has vulnerabilities for 
basically anything that is electronic, even if it is off 
network possibly. Then we are seeing increasingly the 
electromagnetic spectrum become increasingly important. So we 
use the electromagnetic spectrum to find the enemy, to hide 
from the enemy, for communications, and we need it potentially 
for things like microwave weapons to disrupt electronics 
directly that the enemy has.
    So when you think about fighting in all of these domains, a 
multi-domain battle is very appealing because now we think, 
well, how do we integrate that. There are a couple, I think, 
uncertainties going forward. One is what are the sort of cross-
domain effects of these things. So how vulnerable are we from 
cyber attack? How much do we need to be concerned about 
resiliency of operating, being able to turn the switch off of 
our electronics and fight offline? How resilient are our 
networks? Are we going to have robust communications, which we 
want to have those, but will we have them in a contested 
environment? I think we just fundamentally do not know.
    So experimentation is needed. I think one of the biggest 
challenges going forward is when we think about command and 
control. How do we think about command and control in this 
world where we have potentially varying degrees of cyber 
vulnerability and offense, communications, but also lots of 
automation, not just robotics but also things like planning 
tools and automated responses on systems? How do we think about 
a command and control paradigm for that?
    For the Army, I would say a big challenge for implementing 
that type of a battle is it has to be for the more technical 
service. It has never been ultimately as technical a service as 
the Air Force and the Navy, and I think to implement this 
vision that they have, they are going to have to invest in more 
engineers, more science and math, more technical skills to make 
sure they have the right people to then fight in these kind of 
domains.
    Senator Cruz. Thank you, gentlemen.
    Senator Cotton. gentlemen, thank you all for your time and 
your testimony today. It has been very informative and 
insightful.
    This hearing is adjourned.
    [Whereupon, at 5:19 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
